<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN 

               SERVICES, EDUCATION, AND RELATED AGENCIES 

                        APPROPRIATIONS FOR 2011 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________


  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                   DAVID R. OBEY, Wisconsin, Chairman
 NITA M. LOWEY, New York                    TODD TIAHRT, Kansas
 ROSA L. DeLAURO, Connecticut               DENNIS R. REHBERG, Montana
 JESSE L. JACKSON, Jr., Illinois            RODNEY ALEXANDER, Louisiana
 PATRICK J. KENNEDY, Rhode Island           JO BONNER, Alabama
 LUCILLE ROYBAL-ALLARD, California          TOM COLE, Oklahoma
 BARBARA LEE, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 TIM RYAN, Ohio
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      David Reich, Nicole Kunko, Stephen Steigleder, Donna Shahbaz,
            John Bartrum, Lisa Molyneux, and Mike Friedberg,
                           Subcommittee Staff
                                ________

                                 PART 6

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations























                                 Part 6

















      DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION,

              AND RELATED AGENCIES APPROPRIATIONS FOR 2011
                                                                      
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                   DAVID R. OBEY, Wisconsin, Chairman
 NITA M. LOWEY, New York                    TODD TIAHRT, Kansas
 ROSA L. DeLAURO, Connecticut               DENNIS R. REHBERG, Montana
 JESSE L. JACKSON, Jr., Illinois            RODNEY ALEXANDER, Louisiana
 PATRICK J. KENNEDY, Rhode Island           JO BONNER, Alabama
 LUCILLE ROYBAL-ALLARD, California          TOM COLE, Oklahoma
 BARBARA LEE, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 TIM RYAN, Ohio
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      David Reich, Nicole Kunko, Stephen Steigleder, Donna Shahbaz,
            John Bartrum, Lisa Molyneux, and Mike Friedberg,
                           Subcommittee Staff
                                ________

                                 PART 6

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 58-144                     WASHINGTON : 2010

























                        COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2011

                                           Wednesday, May 12, 2010.
                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                      Chairman's Opening Statement

    Mr. Obey. Well, good morning, everybody. Let me apologize 
for being late and to make just a couple comments about what we 
are going to be doing here today.
    I appreciate the fact that everyone who testifies today is 
going to be here in earnest support of programs that they think 
are vital. I spent a good deal of time last night looking over 
the statements of all of the witnesses for this morning and 
this afternoon, and I have to say that I agree with virtually 
all of them.
    But there is a problem. If you total up the cost of all of 
the items that are being requested in these statements, we wind 
up with requests that we increase the President's budget by 
almost $14 billion and I think that, on the merits, is needed 
when it comes to health care research or when it comes to 
education. But when it comes to worker protection, I am a big 
spender and I make no apology for it.
    But we do have a problem because we have, even though the 
President asked for a budget freeze, we have the Republican 
leadership asking that we cut deeper than that; we have blue 
dog Democrats who are also asking that we cut deeper than that.
    In fact, if you take a look at the budget levels that we 
are going to be forced to operate under, we will not be able to 
increase this bill by $14 billion as a lot of you are going to 
be asking today; we are going to have to cut this bill by about 
$3.5 billion. And that means $3.5 billion below Obama's budget. 
And the reason for that, frankly, is that the Country, and many 
members in the Congress, are apparently fixated only on one 
deficit, the Federal budget deficit. And I agree that is an 
important problem that must come down over time, once the 
economy starts to recover.
    But we have other deficits, as the testimony here today 
will certainly demonstrate. We have opportunity deficits, we 
have health care deficits, we have education deficits, we have 
science deficits; and those will not be responded to to any 
great degree unless there is a significant mind-set in the 
Country and a significant mind-set in the Congress.
    That is one of the reasons why I am leaving Congress, 
because I am tired of producing bills that are inadequate to 
meet the needs of the Country, and yet the Congress and past 
presidents have not been at all bothered to increase the size 
of those deficits by providing very large tax cuts by 
financing, in my view, a misbegotten war.
    So I know some people will say, well, yeah, but you can fit 
my program in, you just have to cut some other fellow's 
program. And it is because of that response that I have had 
hanging on my wall for the last eight years this sign. As you 
can see, it is elegant and beautiful. What it says is: What do 
you want me to do for somebody besides yourself that is more 
important than whatever it is you want me to do for you? 
Because that is the spirit that we have to move forward in if 
we are going to deal with budgets in a rational way.
    So I do not by any means want to discourage any of you from 
testifying today. What you will ask for is certainly needed; I 
recognize that. But I hope that you recognize that we need one 
hell of a lot of help to convince the public that we do the 
Country no favors when we short-sheet crucial long-term 
investments in health care, education, worker protection, 
environmental protection, and the like.
    We came out of the wilderness as a backward Country, and in 
the 19th century, because this Country made the right 
investments, by the beginning of the 20th century we became a 
worldwide powerhouse; and we did that by making the right kind 
of investments in the right things.
    So I apologize ahead of time to all of you for the 
limitations of the budget that we will be able to produce this 
year because of the factors that I have just described. And if 
you want to change that so that we do not have to, in the 
future, or so that people in the future, who are sitting in 
this chair, do not have to cut bills that they do not want to 
cut, then you have to go back home to your neighbors and make 
them understand that we are not going to be a great Country if 
we recognize the cost of everything and the value of nothing.
    So thank you for listening while I spout off.
    Mr. Tiahrt is not here.
    Denny, would you like to say anything in response before we 
begin?

                   Ranking Member's Opening Statement

    Mr. Rehberg. Well, let me just begin by saying, Mr. 
Chairman, thank you for your service on the Subcommittee. I do 
not get to be Acting Ranking very often, so I do not want to 
miss the opportunity to just say a few words to you, and that 
is I have appreciated everything you have done, both for this 
Subcommittee and the full Committee.
    I was sitting here reminiscing a bit while you were 
speaking. The last CODEL I took was with Mr. Murtha, Mr. 
Hobson, Mr. Walsh, and yourself, and I am the last man 
standing. That makes me a little nervous.
    But it has been an educational experience, and serving on 
all the subcommittees that I do and have, this is the most 
meaningful exercise that any of the Subcommittees does, by 
bringing in a number of people to, in a rapid fashion, tell us 
their needs and give us a little glimpse of their organization 
and their desires of building a more secure future for the 
people that they represent.
    So I appreciate the process and I appreciate your 
leadership. We are going to miss you a lot. If you would be so 
kind, I would adopt Archie the Cockroach: ``And if I have 
anything to say about it, we will get rid of the pencils; I do 
not think we need anything with an eraser on it.'' But thanks 
for your kind service and an opportunity to thank you publicly, 
and why do we not begin?
    Mr. Obey. Thank you. Thank you very much.
    All right, first we have Brigadier General Billy Cooper, 
representing the National Job Corps Association.
    And let me say that we are going to have to strictly 
enforce the four minute time limit, or the people at the back 
end of the schedule will not get a chance to testify. I am also 
concerned we are going to be interrupted by roll calls on the 
House Floor. The Congress would work just fine if we did not 
have to interrupt our work to go vote. [Laughter.]
    Mr. Obey. Proceed.
                              ----------                              

                                           Wednesday, May 12, 2010.

                               JOB CORPS


                                WITNESS

BRIGADIER GENERAL (RET.) BILLY COOPER, CENTER DIRECTOR, EARLE C. 
    CLEMENTS JOB CORPS CENTER, NATIONAL JOB CORPS ASSOCIATION, 
    DEPARTMENT OF LABOR
    General Cooper. Mr. Chairman, members of the Subcommittee, 
thank you for this opportunity to talk about a passion of mine 
and thousands of other professionals around the Country, which 
is Job Corps. I am Billy Cooper. As you indicated, I am a 
retired Brigadier General from the United States Army, and 
currently I am the Center Director for the second largest Job 
Corps Center in the Country, in Morganfield, Kentucky, the 
Earle C. Clements Center.
    Before I get started, I would like to thank you for 
championing Job Corps throughout your illustrious service. As 
you know, in the very near future, we are going to open the new 
center in Wisconsin, and I look forward to meeting you there 
when we have an opportunity to open that one.
    My journey to Job Corps was not typical. While I do hold a 
Master's Degree in Education, I did not start out as an 
educator; I am a Vietnam draftee who ascended to the rank of 
Brigadier General and had an opportunity to live the American 
dream by virtue of service in our armed forces. And my goal is 
to try to figure out how to help young men and women today to 
understand that the American dream is still possible; they can 
live it, but it is going to take some hard work, some 
education, some job training, and an opportunity that will only 
exist for them in America.
    I first learned about Job Corps when I was serving as the 
Deputy Commanding General of the U.S. Army Recruiting Command 
at Fort Knox. There, I was introduced to the dozens of unique 
and holistic services that Job Corps has to offer to 
disadvantaged youth, and I became a believer in the program. I 
was responsible for starting a partnership between Job Corps 
and the Army which enhances the opportunity for young men and 
women who attend Job Corps to enlist in our armed forces today, 
and that agreement is still intact.
    Nine years ago, I could have gone into a very comfortable 
retirement, but I chose to serve my Country again through Job 
Corps. Like so many and you, we saw that the youth in America 
today might have had an opportunity to miss out on the American 
dream, and that is why Job Corps exists.
    I left the military, became a Center Director, and Job 
Corps, unlike many programs I encountered in the military, does 
in fact teach young men and women to be all that they can be 
through the comprehensive services that Job Corps provides.
    Job Corps is the only viable option for thousands of 
disadvantaged youth. They enroll voluntarily. It is difficult 
for a young man or woman to learn when they are hungry, when 
they are homeless, when they live in poverty and really cannot 
see a way out. The promising news is that, with a modest 
investment in fiscal year 2011, Mr. Chairman, Job Corps can 
cost-effectively use its existing facilities to serve 
additional needy youth.
    Secondly, Job Corps offers comprehensive services, which 
include health care, dental care, education through college, 
job training, counseling; and we have Job Corps Centers in 
almost 50 States today. We have 123 and the Wisconsin Center 
will be number 124.
    On average, I welcome 40 new students to my Center every 
Tuesday. As I said, they are volunteers, and instead of 
dropping out of society in general, they come to Job Corps to 
get a second chance. We provide healthy meals, nutrition 
counseling, counseling, education, and job training again. And 
for members of the Subcommittee, I simply want to say it is the 
only program that provides these comprehensive services.
    Do not just take my word for it. Before I run out of time, 
I would like to introduce one of my students----
    Mr. Obey. [Remarks made off microphone.]
    General Cooper. Well, instead of having Mr. Brooks testify, 
I will tell you he dropped out of high school. He was from 
Oakland originally; he is from Florida now. He had an 
opportunity to hit the mean streets, but did in fact choose to 
help his family by coming to Job Corps, where he has earned his 
skill certification in electricity, will complete his high 
school diploma within the next couple of months. Instead of 
being a liability to society, he will in fact be an asset. 
Serves as a role model. He is probably going to go on to 
college when he leaves Job Corps; we believe we can get him a 
music scholarship at Kentucky State University. He is a great 
alto saxophonist and a super young man, and I regret that you 
did not have an opportunity to hear his entire story.
    Mr. Obey. I do too, especially if he is a musician. I like 
bluegrass and play it myself. [Laughter.]
    But we are going to have to move on.
    And let me say, do not take the lack of comments or 
questions from people on the panel as disinterest. We get 
plenty of time to talk to each other, but if we do not shut up 
today, we will never get through all of the witnesses that we 
have.
    Thank you much.
    General Cooper. Thank you, sir, for your service and my 
opportunity to testify before the Committee.
    [Written statement by Billy Cooper follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. You too. Thank you much.
    Next, Joseph Sharpe from the American Legion.
                              ----------                              

                                           Wednesday, May 12, 2010.

                             VETS PROGRAMS


                                WITNESS

JOSEPH C. SHARPE, JR., DIRECTOR, NATIONAL ECONOMIC COMMISSION, AMERICAN 
    LEGION, DEPARTMENT OF LABOR
    Mr. Sharpe. Mr. Chairman and members of the Subcommittee, 
the American Legion thanks you for this opportunity to present 
its views on fiscal year 2011 funding issues under your 
jurisdiction. The Department of Labor's Veterans' Employment 
and Training Service administers the following programs: 
Disabled Veterans' Outreach Program, the Local Veterans' 
Employment Representatives State grant programs; Transition 
Assistance Programs; Veterans' Preference and Uniformed 
Services Employment and Reemployment Rights Act, USERRA; 
Homeless Veterans' Reintegration Program; Veterans Workforce 
Investment Program; and the National Veterans' Training 
Institute. VETS plays a vital role in promoting the economic 
security of America's veterans by assisting them in finding 
meaningful employment.
    The American Legion believes staffing levels for DVOPs and 
LVERs should match the needs of the veteran's community in each 
State and should not be based solely on the fiscal needs of the 
State government. Such services will continue to be crucial as 
today's active duty service members, especially those returning 
from Iraq and Afghanistan, transition into the civilian 
workforce. Adequate funding will allow the programs to increase 
staffing to provide comprehensive case management job 
assistance to disabled and other eligible veterans.
    The American Legion recommends $267 million to the 
Department of Labor's VETS State Administration Grants for 
fiscal year 2011. And please note that the amount recommended 
for State grants include funds for the Transition Assistance 
Program.
    The American Legion also recommends $50 million for the 
Homeless Veterans Reintegration Program in fiscal year 2011. 
The program has successfully integrated homeless veterans into 
meaningful employment at a high percentage. In addition, the 
HVRP is the only nationwide program focused on assisting 
homeless veterans to reintegrate into the workforce.
    The American Legion also recommends $6 million for the 
National Veterans' Employment and Training Service Institute in 
fiscal year 2011 so that VETS staff can receive comprehensive 
training that will ultimately turn into higher levels of 
proficiency for them and more employment opportunity for 
veterans and their families.
    The American Legion recommends $20 million for the Veterans 
Workforce Investment Program, VWIP, in fiscal year 2011. The 
increase in funding for VWIP would ensure continued efforts in 
life-long learning and skills development programs that are 
designed to serve the most at-risk veterans, those with 
service-connected disabilities and those who recently 
separated.
    The American Legion recommends $61 million for the Program 
Management that encompasses Uniformed Services Employment and 
Reemployment Rights Acts, USERRA, and Veterans' Employment 
Opportunity Act, VEOA, in fiscal year 2011, to ensure service 
members who are deployed return to their jobs and Federal 
agencies are properly adhering to veterans' preference rights.
    Finally, the American Legion is requesting a total of $404 
million for the Department of Labor's Votes Program.
    In conclusion, thank you for the opportunity to submit the 
American Legion's recommendations on funding for the VETS 
program in the Department of Labor.
    [Written statement by Joseph C. Sharpe, Jr., follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you for your testimony and for staying 
within the time limit. I appreciate it.
    Next, Robert Pleasure, from the Building and Construction 
Trades Department. How are you?
                              ----------                              

                                           Wednesday, May 12, 2010.

         NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH


                                WITNESS

ROBERT PLEASURE, SPECIAL ASSISTANT TO THE PRESIDENT, BUILDING AND 
    CONSTRUCTION TRADES DEPARTMENT, AFL-CIO
    Mr. Pleasure. Good morning, Mr. Chairman, members of the 
Committee. As the Chairman just indicated, my name is Robert 
Pleasure. I am Assistant to the President of the Building and 
Construction Trades Department at AFL-CIO.The purpose of our 
testimony today is to request your support for increased 
funding for the National Institute for Occupational Safety and 
Health, NIOSH, and its Construction Research Program.
    Despite some improvements in workplace safety and health as 
a result of research and efforts of the Occupational Safety and 
Health Administration, still, nearly 15 American workers die 
each day from workplace injuries, and another 134 die from 
work-related diseases.
    Four out of those 15 that die on the job are employed in 
the construction industry. Indeed, the construction industry 
has the unfortunate distinction of being the single most 
hazardous industry from the perspective of the number of 
fatalities in the United States, accounting for some 1,200 
construction workers killed on the job each year.
    While construction workers make up only 8 percent of the 
U.S. workforce, they account for more than 22 percent of all 
work-related deaths. In fact, due to exposures to an array of 
toxic and hazardous substances, construction workers have 
unacceptably high levels of occupational disease, including 
cancer, silicosis, asbestosis, and other heart, lung, and 
neurological diseases.
    I have to say that I also have had the dubious distinction 
of having worked on construction safety and health for a number 
of years as Director, in the past, of CPWR, the National 
Construction Center that has been supported over the years by 
NIOSH. But that program has been at $5 million for many, many 
years, from the early 1990s until the present, and I do not 
discount the important hazards that other workers are exposed 
to, having spent time, in my work life, with the Federal Mine 
Safety and Health Review Commission.
    I know that there are many other industries that face these 
challenges, but construction not only faces these very high 
rates of injury and illness, but we know now, as we move from 
research to practice, how to abate these hazards; and the 
research we are now focused on and leading a vanguard effort by 
NIOSH is this R2P, research to practice, program.
    So I speak as any person that might represent the mine 
workers, for example, or offshore workers, many of whom are 
part of the construction industry, with a sense of urgency. 
This is not just a question of research, but it is a movement 
from surveillance to intervention, from research to practice.
    Except for a special $80 million for the World Trade Center 
Health Program and some $7 million for nanotechnology research, 
the President's fiscal year 2011 NIOSH budget request remains 
at last year's level; and, as I said, the Construction Research 
Center has remained at the same level going back to the mid-
1990s.
    While we support both the WTC program and the 
nanotechnology program, we believe that a major increase in the 
NORA budget, the National Occupational Research Agenda budget, 
for NIOSH is essential.
    With respect to that funding, we recommend a $25 million 
increase over the President's $124 million NORA request, which 
was a static request. And we ask particularly for support for 
the work that is done in the construction industry.
    I thank you very much for this opportunity to appear before 
you. We brought our data up to 2008 BLS data in what I 
submitted today, the 35 copies, and I ask your permission to 
include those changes in the record.
    Mr. Obey. Sure. All right.
    Mr. Pleasure. Thank you very much.
    [Written statement by Robert J. Pleasure follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you much.
    Next, James Kohlmoos from Knowledge Alliance.
                              ----------                              

                                           Wednesday, May 12, 2010.

                                K-12 ED


                                WITNESS

JAMES W. KOHLMOOS, PRESIDENT, KNOWLEDGE ALLIANCE, DEPARTMENT OF ENERGY
    Mr. Kohlmoos. My name is Jim Kohlmoos, this is Augustus 
Mays, and we are both from Knowledge Alliance, which is a 
coalition of 35 education organizations dedicated to promoting 
the expanded use of research-based knowledge in policy and 
practice. We greatly appreciate this opportunity to testify.
    And to you, Mr. Chairman, thank you so much for your 
skilled and dedicated leadership on so many critical issues of 
equity and excellence in education over so many years. We will 
greatly miss you, but your legacy will endure for a very, very 
long time. So thank you, sir.
    Mr. Obey. Thank you.
    Mr. Kohlmoos. We wish to offer three critical ideas as you 
grapple with this appropriations bill.
    Number one, the Nation is still at risk. If you were to 
read the Nations At Risk Report this afternoon, you would think 
that it was written just yesterday, not in 1983. The critical 
issues that we face today were pervasive more than 25, 30 years 
ago: the trend towards mediocrity, glaring achievement gaps, 
diminishing global competitiveness.
    Even though education reform has been a top priority for 
the last 30 years, why have we made so little progress? A lack 
of political will? A fractured education system? The 
curriculum? Human capital? We think it is all of the above and 
more. And the more in this case is that we do not have in place 
an education and R&D infrastructure that can deliver the kind 
of research-based solutions in ways similar to other sectors 
like medicine, agriculture, energy, and defense. Education is 
not yet an evidence-based, knowledge-driven field.
    Second, education funding in R&D ranks near the bottom. 
While there are a number of structural flaws in the education's 
R&D infrastructure, the root cause is the woefully meager 
Federal investment. Consider this: $78; $0.38. The difference 
between what you can buy with $78 versus $0.38 is obviously 
very significant. In similar proportions, it is the difference 
between the Federal investment in defense R&D, at $78 billion, 
and the Federal investment in education R&D, at just $170 
million. For a $500 billion industry like K-12 education to 
invest less than one-one hundredth of a percent in R&D is a 
recipe for perpetual failure.
    Third, invest more in what is currently working. Despite 
the low investment in education R&D, there is reason for 
optimism in the pockets of excellence in the knowledge sector 
in education that can invigorate the R&D enterprise. 
Specifically, I am referring to three existing programs that 
lay a strong foundation from which to grow in the future: the 
Comprehensive Assistance Center Programs for providing 
technical assistance to States; the Regional Education 
Laboratories that serve as an essential bridge between the 
research community and State and local agencies; and National 
R&D Centers for conducting research on issues of enduring 
national significance.
    As outlined in my written comments, we urge substantial 
increases in these three vital programs. And when combined with 
the resources for school improvement and innovation in the ARRA 
funds, these three programs can create a powerful launchpad 
from which to erect a world-class R&D system for education.
    Mr. Chairman, members of the Committee, the time has 
arrived to unleash America's ingenuity, to solve our most 
pressing education problems, to deliver break-the-mold 
solutions to our schools, and to guide a new knowledge and 
innovation revolution in teaching and learning. You can begin 
doing that by taking on our recommendations for increased 
investment in Federal R&D.
    Thank you so much.
    [Written statement by James W. Kohlmoos follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much. Appreciate your time.
    Next, Chris Francis, Afterschool Alliance.
                              ----------                              

                                           Wednesday, May 12, 2010.

                          AFTERSCHOOL PROGRAMS


                               WITNESSES

CHRIS FRANCIS, CEO, YMCA OF THE NORTHWOODS, RHINELANDER, WISCONSIN, 
    AFTERSCHOOL ALLIANCE, DEPARTMENT OF EDUCATION
JODI GRANT, EXECUTIVE DIRECTOR, AFTERSCHOOL ALLIANCE, DEPARTMENT OF 
    ENERGY
    Ms. Grant. Good morning, Chairman Obey, members of the 
Subcommittee. It is an honor to be here today. I am Jodi Grant, 
Executive Director of the Afterschool Alliance. Afterschool 
programs are critical to America's next generation; keeping 
kids safe, inspiring them to learn, and providing a lifeline 
for working parents.
    Thank you for your strong support of afterschool programs. 
This afternoon, more than 1.2 million children will be in 
afterschool programs supported by the 21st Century Community 
Learning Centers Fund. They are the lucky ones. They have 
access to a variety of exciting activities: CSI labs, robotics, 
theater, dance, art, music, and sports. Afterschool teachers 
make sure learning is fun and complements what the students are 
working on during the day.
    Children in 21st Century Centers have access to a snack or 
supper, homework help, tutoring, and caring adult mentors. More 
than 15 million children remain unsupervised after the school 
bell rings. It is vital that this year's budget provide the 
additional resources that afterschool programs so desperately 
need.
    I am delighted to introduce Chris Francis. Chris is the CEO 
of the YMCA of the Northwoods in Rhinelander, Wisconsin. Like 
many----
    Mr. Obey. Let me interrupt to say the staff listed it as 
Whinelander. It is Rhinelander. [Laughter.]
    Ms. Grant. Like many YMCAs around the Nation, Chris 
operates an afterschool program serving the needs of youth and 
families in the community.
    Afterschool programs have been hit hard by this recession. 
Private funding sources have dried up and fees have gotten 
harder for families to pay. Federal funding has been essential 
in making afterschool available to many of the children that 
Chris serves and hundreds of thousands of them all across the 
Country.
    The Administration's budget proposal for fiscal year 2011 
carves out dollars from afterschool funding for other purposes, 
leaving some of our working parents and students behind. In 
addition, the blueprint for ESEA proposes to expand the 
priorities of the 21st Century Program in a way that would 
leave many more children without access to quality afterschool 
programs.
    On behalf of the more than 26,000 afterschool programs that 
the Afterschool Alliance works with, we urge the Committee to 
appropriate additional funds for 21st Century this year and to 
make certain that it remains a dedicated funding stream for 
afterschool and summer programs in the years to come.
    Chris.
    Mr. Francis. Good morning, Chairman Obey and Subcommittee 
members. I am Chris Francis and I am the CEO of the YMCA in 
Rhinelander, Wisconsin.
    Let me start by thanking my member of Congress, Chairman 
Obey, for his decades of public service. He has served the 
people of Wisconsin honorably and we are grateful for all he 
has done for our region.
    The YMCA provides the community and the school district of 
Rhinelander's sole afterschool chance program. We are almost 
entirely reliant on the district's 21st Century dollars. There 
are two multi-year grants at work, one for children grades 6 
through 8 and one through grades 4 through 5. The district also 
applied for 21st Century dollars for K through 3, but was 
unfortunately not awarded a grant.
    The first point I want to promote is that we work very hard 
to make sure our program is coordinated with what is going on 
in the regular school day. We have regular school day teachers 
who serve as tutors, and they have specific knowledge of what 
is being taught when and what extra help children might need.
    At one of our centers, our site coordinator is also the 
school's guidance counselor, and she is vigilant about making 
sure we know which students need help with a given issue.
    Over the course of the last year, students in our program 
have dramatically improved their grades. The average GPA of 
regular attendees has increased steadily from 2.5 in the first 
quarter to 3.2 the first quarter this year.
    One of our afterschool students, whose name I will protect, 
came to us as a seventh grade student last year. He eventually 
had a run-in with law enforcement after school. That is the 
point at which a lot of kids can and do slip right through the 
cracks, labeled as troublemakers or low achievers. But the 
school district and the YMCA worked very hard with him to get 
his grades up and get him back on track, and this year he is on 
the honor roll and continues with our program because he enjoys 
it.
    I know the Committee is interested in the opportunity that 
afterschool programs offer for delivery of health care services 
and health literacy instruction, and I could tell you that 
afterschool provides an ideal platform.
    Now turning to a second to proposals going forward, I have 
some concerns. First, being a relatively small district, we do 
not have a professional grant writer on staff, so I am 
concerned about what it would mean if grants were nationalized.
    Mr. Chairman, afterschool programs are in short supply. 
More than 300,000 kids are left unattended after school. 
Children in our State and in our Country deserve and need more 
afterschool programs.
    [Written Statement by Chris Francis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much. Just one comment. You talk 
about kids who run into trouble with the law. When I was in the 
seventh grade, I skipped two days out of five regularly. I 
would get off the school bus----
    [Laughter.]
    I would get off the school bus, I would walk three miles 
home, grab my dog, go out and sit in the woods. If I had not 
had the intervention by a couple of teachers in what was the 
equivalent of an afterschool program, I might be in an 
institution, but it would not be the United States Congress. 
[Laughter.]
    Mr. Francis. Thank you, Mr. Chairman. We hear those stories 
a lot.
    Mr. Obey. Next, Sharon Washington, National Writing 
Project.
                              ----------                              

                                           Wednesday, May 12, 2010.

                        NATIONAL WRITING PROJECT


                               WITNESSES

SHARON J. WASHINGTON, EXECUTIVE DIRECTOR, NATIONAL WRITING PROJECT, 
    DEPARTMENT OF ENERGY
MARY TEDROW, ENGLISH TEACHER, JOHN HENLEY HIGH SCHOOL, WINCHESTER, 
    VIRGINIA, DIRECTOR, SHENANDOAH VALLEY SUMMER INSTITUTE
    Ms. Washington. Good morning, Chairman Obey and other 
members of the Subcommittee. My name is Sharon Washington, 
Executive Director of the National Writing Project. I 
appreciate the opportunity to present this testimony requesting 
continued support. The National Writing Project is the only 
nationwide network of professional development centers 
dedicated to improving the teaching of writing. Since 1991, the 
National Writing Project has been an authorized program within 
the Elementary and Secondary Education Act. With consistent 
Federal funding, NWP has built a national infrastructure of 
more than 200 sites located in universities across the Country. 
NWP sites serve teachers at all grade levels and across 
disciplines; and teachers, schools, and districts across all 50 
States, the District of Columbia, Puerto Rico, and the U.S. 
Virgin Islands.
    As you know, the Administration's fiscal year 2011 budget 
proposal recommends a competitive grants program for States 
called Effective Teaching and Learning: Literacy. NWP is not 
eligible to compete for funds in this consolidated program and 
would receive no direct funding. As a result, this effective 
national infrastructure that Congress has invested in since 
1991 would be lost.
    NWP professional development addresses two essential 
elements in educational improvement: the importance of quality 
teaching and the vital skill of writing. And today this means 
writing in all its forms--blog posts, tweets, persuasive 
essays, scientific and business writing, as well as digital 
stories, to name just a few.
    In fact, writing in its many forms is the signature means 
of communication in the 21st century. In a 2009 national public 
opinion poll, three-quarters of those surveyed believe good 
writing skills are more important today than they were 20 years 
ago. And those of us who have children, grandchildren, nieces 
and nephews, do not need to be convinced on that score.
    Since 1974, the National Writing Project has expanded its 
capacity to work with teachers from one local site to more than 
200 today. NWP is truly a national, innovative, effective 
program with a significant portfolio of research and evaluation 
studies that show impact on student writing and performance. 
Here are three key facts:
    One hundred thousand teachers are served each year. Over 
the last decade, at least one million teachers have 
participated in our programs.
    Two, National Writing Project's direct Federal support 
leverages a 1:1 match with university, local, State, and 
private dollars to improve classroom instruction in writing 
that reaches millions of students annually.
    Three, NWP develops new innovative programs to support the 
work of local sites. For example, NWP has been awarded a three-
year grant from the MacArthur Foundation to help support 
professional development programs using new digital tools for 
the teaching of writing.
    We know how important it is for the next new generation of 
students to be able to communicate effectively and how 
important that will be to their futures. I would like to 
introduce to you Mary Tedrow, an English teacher at John Henley 
High School in Winchester, Virginia, the Director of the 
Shenandoah Valley Summer Institute.
    Mary.
    Ms. Tedrow. Thank you.
    My initial contact with the NWP came in 1982, when I was a 
relatively new teacher and attended a professional development 
program featuring presentations by classroom teachers trained 
through the Northern Virginia Writing Project located at George 
Mason University. In an era when teachers worked in isolation, 
this was the first time teachers shared their best lessons and 
their student work with me.
    This contact resulted in immediate changes to my practice, 
such as adding daily writing and student sharing, all unheard 
of in traditional classrooms.
    In 1998, I was accepted into the five-week invitational 
summer institute. Since then, I have been able to extend the 
investment in my leadership to other teachers. Over 50 teachers 
in grades kindergarten through university have received 
training in the Shenandoah Valley since 2005 and returned to 
their respective districts to lead their peers in professional 
development, while continuing to learn new skills from the NWP 
network.
    I have been exposed to more than 21 years of professional 
development programs, and the Writing Project stands alone in 
its transformative nature.
    I thank you on behalf of Writing Project teachers from 
across the Country and the students that we teach each year.
    [Written statement by Sharon J. Washington follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you both very much.
    Next, Sheriff Dean Roland, from Fight Crime: Invest in 
Kids.
                              ----------                              
                                           Wednesday, May 12, 2010.

CHILD CARE AND DEVELOPMENT BLOCK GRANT PROGRAM, HEAD START PROGRAM, AND 
            21ST CENTURY COMMUNITY LEARNING CENTERS PROGRAM


                                WITNESS

DEAN ROLAND, SHERIFF, BURNETT COUNTY, WISCONSIN, FIGHT CRIME: INVEST IN 
    KIDS
    Mr. Roland. Thank you for the opportunity to testify before 
you today. My name is Dean Roland, and I am the Sheriff of 
Burnett County, Wisconsin. I am also a member of Fight Crime: 
Invest in Kids, a national organization of more than 5,000 law 
enforcement leaders who have come together to take a hard-nosed 
look at the research about what really works to keep kids from 
becoming criminals. Fight Crime: Invest in Kids takes no 
Federal, State, or local money, and does not run any of the 
programs we advocate for. I know from my experience and from 
research that access to high-quality early care and education 
for at-risk kids cannot only help close the achievement gap, 
but prevent crime and make our communities safer as well.
    For example, a study found that at-risk kids left out of 
Chicago's Child Parent Centers Early Education Program, similar 
to Head Start, were 70 percent more likely to be arrested for a 
violent crime by age 18. Another study found that at-risk kids 
left out of the high-quality Perry Preschool Program were five 
times more likely to be chronic offenders, with five or more 
arrested by age 27. By age 40, those who did not attend the 
Perry Preschool Program were more than twice as likely to 
become career offenders, with more than 10 arrests and twice as 
likely to be arrested for violent crimes.
    Head Start is the Nation's premier school readiness program 
for children in poverty. Head Start incorporates most of the 
key features of high-quality, early education programs proven 
to cut crime, such as appropriate class size and teacher-
student ratios, comprehensive and age-appropriate early 
learning standards, related services, including health 
referrals, and parent involvement and coaching.
    Research shows Head Start works for kids. For example, one 
national study found that Head Start increases high school 
graduation rates by 7 percent for children in the program 
compared to their siblings not in the program, but in other 
care, and decreased crime by 8.5 percent.
    Early Head Start provides comprehensive child development 
and family strengthening services for infants and toddlers from 
birth to age 3. Research shows that Early Head Start is 
effective. A study of over 3,000 families participating in 17 
Early Head Start programs nationwide found that three-year-olds 
who had participated in Early Head Start had higher levels of 
cognitive and language development, better attention to play, 
and lower levels of aggressive behavior.
    This finding on aggressive behavior relates directly to 
crime. Research shows that 60 percent of children with high 
levels of disruptive, aggressive behaviors in early childhood 
will manifest high levels of antisocial and delinquent behavior 
later in life.
    High-quality early care and education for at-risk kids not 
only reduces crimes, but saves the public money as well. For 
example, a cost-benefit analysis of the high scope Perry 
Preschool Program showed that it saved $16 for every $1 spent. 
And having been in this profession 35 years and 20 years as a 
professionist, I can tell you you cannot build enough jails. We 
need to focus on the education. Prevention works.
    Unfortunately, despite these proven benefits, these 
programs remain chronically underfunded. Nationally, Head Start 
is only able to serve about half of the eligible kids. Early 
Head Start serves less than 5 percent of eligible infants and 
toddlers.
    The Child Care and Development Block Grant is only able to 
help one in seven eligible low-income kids get high quality 
child care. In the current economic climate, more kids need 
these services, but are unable to access them, and States are 
cutting back their early care and education investments due to 
their budget shortfalls.
    To ensure at-risk kids get the high quality, early care and 
education they need, I strongly urge you to increase funding 
for investments that have been proven to reduce later crime and 
violence by helping kids get the right start in life.
    As you develop the fiscal year 2011 appropriations package 
for the Department of Labor, Health, and Human Services, I urge 
you to fund President Obama's proposed increase of nearly $1 
billion over fiscal year 2010 levels for Head Start and Early 
Head Start, and to increase funding for the Child Care and 
Development Block Grant by $1 billion over fiscal year 2010 
levels. As a law enforcement officer who has watched too many 
kids grow up and become criminals, I know these investments 
will make our community safer.
    Thank you again for this opportunity.
    [Written statement by Dean Roland follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much, and I appreciate the work 
you have done through the years.
    Mr. Roland. Thank you very much.
    Mr. Obey. Thanks for coming.
    Mr. Roland. Same to you.
    Mr. Obey. Next, Ford W. Bell, American Association of 
Museums.
                              ----------                              

                                           Wednesday, May 12, 2010.

                    AMERICAN ASSOCIATION OF MUSEUMS


                                WITNESS

FORD W. BELL, PRESIDENT, AMERICAN ASSOCIATION OF MUSEUMS, INSTITUTE OF 
    MUSEUM AND LIBRARY SERVICES
    Mr. Bell. Thank you, Chairman Obey and Ranking Member 
Tiahrt--who is not here--and other members of the Subcommittee. 
I appreciate the opportunity to testify today. I am here on 
behalf of the American Association of Museums to request your 
support for an increased investment in our Nation's museums. 
The American Association of Museums is proud to represent the 
full spectrum of our Nation's museums, from aquariums, 
botanical gardens, and historic sites, to planetariums, 
presidential libraries, science and technology centers, zoos, 
aquariums, and everything in between, along with professional 
staff and volunteers who work for and with museums.
    The Institute of Museum and Library Services is the primary 
Federal agency that supports the Nation's 17,500-plus museums, 
and its Office of Museum Services awards grants to all types of 
museums to help museums care for their collections and to 
create innovative programs and exhibits.
    We urge your support for $50,000,000, a $15,000,000 
increase for the Office of Museum Services at the Institute of 
Museum and Library Services.
    Museums are essential to our communities, schools, and 
economy for many reasons. Each dollar that supports museums is 
an important economic investment. In 2008 alone, museums 
contributed approximately $20 billion to the American economy. 
Museums also serve as economic engines, bolstering local 
infrastructure and encouraging tourism. There are 850 million 
museum visits in the United States every year.
    Museums create jobs. An estimated 500,000 people currently 
work for museums, but the more than $20 billion pumped into the 
American economy by museums creates millions more jobs.
    Museums are also key partners in education. Museums spend 
more than $2.2 billion annually on educational programming for 
K through 12 children and design educational programs in 
coordination with State and local curriculum standards in 
almost every subject. They also provide professional 
development for teachers in all subjects.
    Through the use of digitization and traveling exhibitions, 
museums are able to bring their collections to underserved 
regions across the Country. Unfortunately, like so many other 
nonprofits, museums are struggling in this economy. They have 
been forced to cut back hours, programming, community services, 
and, therefore, jobs. Some have had to close their doors for 
good.
    It is for these reasons that increased funding for the 
Office of Museum Services, which has been essentially flat-
funded for many years, is so critical. For example, Congressman 
Obey, in your district, IMLS grants support Lac Courte Oreilles 
Band of Lake Superior Chippewa Indians Malagasy Cultural 
Resources Center, allowing the Center to partner with the local 
schools to develop regional history curriculum.
    Congressman Rehberg, in your district, with IMLS support, 
the great Museum of the Rockies will host Dinosaurs Under the 
Big Sky through its new Mesozoic Media Center. This multi-
partner project will bring science to entirely new audiences 
with live webcasts and other educational programming.
    It is important to note that zoos and aquariums are 
critical members of our museum family. They are leaders in 
environmental education; they are saving endangered species; 
and they too are economic engines creating thousands of jobs 
and spurring local tourism dollars. I raise the issue today 
because a year ago zoos and aquariums were excluded from 
competing for stimulus funds and are currently excluded from 
some proposed jobs bills.
    Museums are significant job creators, and zoos and 
aquariums, in particular, create green jobs. They are science 
education jobs, keep us competitive globally, and they are 
investments in community infrastructure that we cannot afford 
to ignore. I urge the Subcommittee to consider the vital role 
that zoos and aquariums play as any further stimulus bills or 
jobs bills or other appropriations bills are considered.
    Thank you for the opportunity.
    [Written statement by Ford W. Bell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you. Let me just make one point. Zoos were 
not excluded because there is anything wrong with zoos; they 
were excluded because it was necessary to find the votes to 
pass the stimulus bill. There are some people in this 
institution and out who have a habit of demagoging when they 
can find anything they can get a handle on, and they certainly 
have done so in the past with respect to those institutions, 
which is why, for the greater good, we regretfully had to 
recognize that the power of their outlandish rhetoric 
outweighed our ability to counter it, to be frank about it.
    Mr. Bell. I understand, Congressman. Thank you, Mr. 
Chairman.
    Mr. Obey. Thank you.
    Next, Vivian Schiller, National Public Radio.
                              ----------                              

                                           Wednesday, May 12, 2010.

                         NATIONAL PUBLIC RADIO


                                WITNESS

VIVIAN SCHILLER, PRESIDENT AND CEO, NATIONAL PUBLIC RADIO, CORPORATION 
    FOR PUBLIC BROADCASTING
    Ms. Schiller. Thank you, Mr. Chairman and members of this 
Subcommittee. I appreciate your giving me the opportunity to 
express support for funding for public broadcasting. As the 
President and CEO of NPR, I am testifying today on behalf of 
more than 850 public radio station partners, producers, and 
programming allies, including American Public Media, Public 
Radio International, and Public Radio Exchange.
    The public radio system, all in public broadcasting, and 
the tens of millions of Americans who listen and watch every 
week are grateful for your decades of support. We are also 
grateful for the additional $25 million in funding provided by 
Congress last year to help stations offset the devastating 
financial impact of the Country's economic crisis.
    The concept of public funds for public broadcasting is a 
cornerstone of the relative financial stability of our system. 
In the few minutes I have with you today, let me cover two 
closely related topics: the dramatic changes that have engulfed 
media, and particularly the world of journalism and news that 
are the strengths of public radio; and the state of public 
radio and steps we have taken.
    Last month, the Project for Excellence in Journalism from 
Pew released its annual State of the News Media Report. Every 
year it is a very hotly anticipated document and, at 700 pages, 
it is pretty closely analyzed for clues and nuances about the 
future of the business. Well, usually it is tea leaf reading, 
but not this year. This year, the report came like a blow to 
the head with a two-by-four.
    Here are a few phrases I pulled verbatim from the State of 
the Media Report: enormous losses; grim revenue numbers; 
continued declines in audience; continued declines in revenue; 
continued declines in staff; and this line, the losses suffered 
in traditional news gathering in the last year were so severe 
that, by any accounting, they overwhelmed the innovations in 
the world of news and journalism.
    Here are these findings translated into numbers. 
Newspapers, including online, saw ad revenue fall 26 percent 
during the past year, bringing total losses over the last three 
years to 41 percent. Nearly one in every five journalists 
working for newspapers in 2001 is no longer doing so. Almost 
6,000 full-time newsroom jobs were cut, or about 11 percent in 
2008. Sixteen hundred jobs lost in local television the last 
two years. Over the past five years, newspaper audiences have 
declined by 29 percent. And on and on.
    This is coverage of the very issues that you referenced as 
so needing of support, a lot of things that are being talked 
about today. This is coverage about health care, about 
education, about worker protection, about children in need and 
children at risk.
    I add one more statistic that really begins to tell the 
story or, rather, leaves the story untold: overseas, all three 
television networks had, by the end of 2008, eliminated the 
posting of a full-time reporter in Iraq. The Pew report begins 
with two words: What now?
    First, you should know that we are NPR still have our Iraq 
bureau and a full-time bureau in Kabul, Islamabad, and 14 other 
international locations, plus 21 domestic bureaus. Yes, we were 
hit by the recession and suffered losses, mostly in 
underwriting revenue, but we have not hit in audience. We have 
just reached an all-time high: 34 million listeners every week 
to NPR member stations at six hours per week. Our audience 
continues to grow.
    So here is the what now for us. We are moving forward 
through innovation and partnership in three areas: more 
original reporting, foreign investigative breaking news, and 
particularly local reporting; reaching more diverse audiences 
to reflect changes in each race and ethnicity as the 
demographics of the Country change; and fully embracing new 
platforms and technologies--streaming, podcasting, use of the 
iPhone, iPad, BlackBerry; wherever our audience needs us.
    And unlike others in media seeking to turn a profit or 
charge fees for access to the news, we will always be free to 
our audience, the American people. NPR believes public radio 
and all of public broadcasting have an integral and primary 
role to present the future information needs of American 
communities, and we thank you for our support today. Thank you.
    [Written statement by Vivian Schiller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Yasmina Vinci, from the National Head Start 
Association.
                              ----------                              --
--------

                                           Wednesday, May 12, 2010.

                               HEAD START


                                WITNESS

YASMINA VINCI, EXECUTIVE DIRECTOR, NATIONAL HEAD START ASSOCIATION
    Ms. Vinci. Chairman Obey and distinguished members of the 
Committee, thank you very much for the opportunity to testify.
    Chairman Obey, given your recent announcement of your 
pending retirement, I would like to take a very quick moment 
and thank you for all you have done as Chairman of the 
Committee, and I think early care in education is stronger as a 
result of your efforts. Thank you.
    I am testifying today on behalf of the National Head Start 
Association, which represents more than one million children, 
200,000 staff, and 2600 programs in the United States.
    Created in 1965, Head Start is the evidence of the 
Country's longest commitment to early education and care. Head 
Start programs across the Country prepare young high-risk 
children and their families to succeed in school and in life.
    These investments in Head Starts have paid dividends to the 
children, to their families, and to the communities. Reliable 
research studies demonstrate that fewer Head Start children 
repeat grades; fewer need costly special education; more 
graduate from high school.
    Because of Head Start's health services, 33 to 50 percent 
fewer children die of preventable diseases in their early 
school years. And as you heard from Sheriff Roland, Head Start 
benefits society at large by reducing crime and its cost to 
crime victims.
    More than 27 million children have benefitted from Head 
Start. But prior to the American Recovery and Reinvestment Act, 
Head Start was only able to serve about 40 percent of eligible 
children and Early Head Start served only 2 to 3 percent. 
Thanks to Congress, through the Recovery Act funding, Head 
Start and Early Head Start have been able to serve 14,000 more 
three- and four-year-olds, and 50,000 more infants and toddlers 
across the Country.
    However, the increased numbers of children and families now 
assisted by Head Start still falls short of the need. According 
to the U.S. Bureau of Census, another 1.1 million children 
under the age of six slipped into poverty between 2001 and 
2008, and those children are now on Head Start programs' 
waiting lists.
    For instance, in Sedgwick County, Kansas, there were over 
2,000 applications for only 237 spaces. In five Minnesota 
communities, 1,866 families are on waiting lists. And in just 
one program in California, Berkeley-Albany YMCA, 240 families 
are waiting anxiously every day for a space to open.
    For all of these reasons and more, NHSA strongly supports 
the President's budget for fiscal year 2011. Specifically, the 
President's budget provides an additional $989 million for Head 
Start and Early Head Start to continue to serve the 64,000 
additional children and families funded by the Recovery Act.
    The President's proposal would allow Head Start programs to 
preserve the recent gains. After years of flat funding that did 
not keep up with the rate of inflation, we are moving towards 
paying Head Start staff wages consistent with their skills.
    Through the Recovery Act, an additional 24,000 jobs were 
created for the new Head Start staff. Thousands more jobs were 
created in building new Head Start classrooms and playgrounds, 
and many more children and families are being served.
    Accordingly, it would be devastating to every community 
across the Country if Head Start suddenly had to cut back and 
reduce the size of the program. Tens of thousands of early 
childhood professionals would have to be laid off; at-risk 
families would be dropped from the program with nowhere else to 
turn; buildings would sit empty; and the gains that have been 
made would be lost. This Country cannot afford for that to 
happen.
    For all these reasons and more, National Head Start 
Association hereby requests that this Committee support the 
President's fiscal year 2011 budget proposal for Head Start and 
for the other early childhood programs as well.
    Thank you very much.
    [Written statement by Yasmina Vinci, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, is it Tunde Eboda? National Association for State 
Community Services Programs.
                              ----------                              


                                           Wednesday, May 12, 2010.

                 COMMUNITY SERVICES BLOCK GRANT PROGRAM


                                WITNESS

TUNDE EBODA, PH.D., CSBG STATE ADMINISTRATOR, DISTRICT OF COLUMBIA, 
    NATIONAL ASSOCIATION FOR STATE COMMUNITY PROGRAMS
    Mr. Eboda. Yes, Mr. Chairman. Thank you very much. Chairman 
Obey, Acting Ranking Member Rehberg, good morning. Members of 
the Committee, we want to thank you for the opportunity this 
morning to provide testimony on behalf of the National 
Association for State Community Services Programs.
    We want to thank Congress for the support of the Community 
Services Block Grant and we look forward to the many 
opportunities in the future to demonstrate the successes and 
build upon the successes that we have accomplished in promoting 
economic stability and mobility for Americans everywhere.
    We especially want to thank Chairman Obey for the ardent 
work that he has done over the week and for being the champion 
of vulnerable populations. We very much appreciate your service 
and thank you for it.
    Mr. Obey. Thank you.
    Mr. Eboda. I planned today to talk about CSBG outcomes, and 
we do have a lot of them, but first I want to talk about jobs.
    We are the recipient of economic recovery funds, and we are 
happy to report that this year, so far, we have created and 
retained or retained a minimum of 8,000 jobs, and have helped 
approximately 22 percent of Americans in poverty to stay 
employed and retain economic stability.
    The Federal recovery spending data ranks the Community 
Services Block Grant number 12 out of approximately 200 
programs that were reviewed for jobs created and retained. 
Because of the Recovery Act funds, we have been able to 
accomplish this many successes.
    We stand the risk of losing the Recovery Act funds at the 
end of 2010. We will be asking and request that a minimum of 
$300 million be added to the CSBG funds, which would be 
approximately 33 percent of what we will be losing as a result 
of the Recovery Act funds expiring at the end of fiscal year 
2010.
    What are some of the functions of the state in the 
Community Services Block Grant Program? We provide, of course, 
the assurance through the Federal Government and to all 
stakeholders that we hold community action agencies accountable 
for the use of Community Services Block Grant funds; we provide 
the partnerships that is critical to making Community Services 
Block Grant funds work.
    Many other Federal programs are already located within the 
State. The Temporary Assistance for Needy Families, the Low 
Income Home Energy Assistance Program, Early Head Start 
programs, all combine to make CSBG work through partnerships. 
We provide the monetary and evaluation that is necessary to 
assure our stakeholders that we are good stewards of Federal 
funds.
    Additionally, we have the responsibility for providing 
reports to Congress on an annual basis that demonstrate the 
successes and how we have overcome challenges that exist within 
the network.
    We are asking also that language in the CSBG statute be 
retained so that we have the flexibility to recapture funds and 
redistribute those funds within the CSBG network if agencies do 
not expend up to 20 percent of their grant going into the next 
fiscal year.
    We have many examples of successes within the CSBG program. 
We have provided details for the record in the testimony that 
we have submitted before the Committee today.
    We are happy to be here to report on the successes and we 
have many, many more, and we encourage members to please review 
the testimony, and we are happy to answer any questions that 
you may have. Thank you.
    [Written statement by Tunde Eboda follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you again.
    Mr. Eboda. Thank you very much.
    Mr. Obey. Next, Steven Berg, National Alliance to End 
Homelessness.
                              ----------                              

                                           Wednesday, May 12, 2010.

                              HOMELESSNESS


                                WITNESS

STEVEN R. BERG, VICE PRESIDENT FOR PROGRAMS AND POLICY, NATIONAL 
    ALLIANCE TO END HOMELESSNESS
    Mr. Berg. Good morning, Mr. Chairman and members of the 
Subcommittee. The last time we had full national data was early 
in 2008, and at that point there were two-thirds of a million 
people homeless in the United States. Now, that is too many 
people. But that is also significantly fewer people than were 
homeless even a few years beforehand. We started to make 
progress on this issue thanks to what communities around the 
Country are doing to adopt new practices and better approaches.
    Homelessness is a problem with a solution, and an important 
part of that solution is in the jurisdiction of this 
Subcommittee. My written testimony identifies 11 different 
items that we believe are key and relevant to continuing to 
make progress. I want to spend a couple minutes just focusing 
on three of those that involve some new things.
    First of all, SAMHSA has a series of direct grants to 
nonprofits around the Country to provide services in supportive 
housing. Supportive housing is deeply subsidized housing, where 
the rents are subsidized, combined with intensive support 
services in health treatment that has proven to really work to 
get people who have been on the streets for many years, who 
have severe problems of mental health, substance abuse, other 
kinds of physical problems, to get them off the street, 
permanently housed, and end their homelessness. That is a model 
that has directly contributed to thousands of people who used 
to live on the streets now being housed.
    This year there is something in the President's budget that 
people on this Committee and around the Country have been 
demanding for many years, which is for an initiative to get HHS 
and HUD to work more closely together to provide permanent 
supportive housing. So most of the funding for that is coming 
from HUD, but there is $15.8 million in the President's budget 
to provide supportive services specifically matched up with 
HUD-funded rental vouchers to provide permanent supportive 
housing both for homeless people with disabilities and also for 
homeless families with children. This is a new initiative we 
think is going to go a long way toward getting those two 
agencies to work together and to get the people who get their 
money on the ground to work together. So that is an important 
item.
    Community Health Teams is a grant program that was in the 
health care reform bill that is ready to go as soon as money is 
appropriated for it. This would fund primary care providers to 
coordinate with other providers at the State and local level to 
provide services to people in medical homes, which is a term of 
art, but which applies to permanent supportive housing. So it 
is another way into this permanent supportive housing problem. 
We believe an initial allocation of $20 million for that 
program, to get that program started and off the ground would 
be money well spent.
    Finally, the third piece has to do with youth homelessness. 
There are many unaccompanied youth who are homeless in our 
cities and our rural areas. We do not know as much about that 
part of the problem, but we do estimate that there is probably 
50,000 who are long-term living on the streets, without 
anyplace to live, without any support from family.
    We are working very hard to up the visibility of this issue 
this year and to really look for better solutions, and we think 
the Runaway and Homeless Youth Act programs at the 
Administration for Children and Families are going to be a key 
part of those solutions.
    I would like to close just by saying we have made great 
progress on this issue over the last few years. The 
Appropriations Committee has been at the center of that 
progress by investing in things that work, so on behalf of 
myself, on behalf of literally hundreds of thousands of people 
who are going to bed tonight in a modest apartment, who would 
be sleeping in the back seats of their cars, I want to thank 
you for the work you have done over the years as a leader on 
this issue and assure you that we will continue to work on it 
while you are gone.
    [Written statement by Steve Berg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you much.
    Mr. Berg. Thank you.
    Mr. Obey. Next, Kevin Martone, National Association of 
State Mental Health Program Directors.
                              ----------                              

                                           Wednesday, May 12, 2010.

                       MENTAL HEALTH BLOCK GRANT


                                WITNESS

KEVIN MARTONE, COMMISSIONER, NEW JERSEY DEPARTMENT OF HUMAN SERVICES, 
    DIVISION OF MENTAL HEALTH SERVICES, NATIONAL ASSOCIATION OF STATE 
    MENTAL HEALTH PROGRAM DIRECTORS
    Mr. Martone. Mr. Chairman, members of the Subcommittee, I 
want to thank you for the opportunity to appear before you 
today. My full-time job, I am New Jersey's Mental Health 
Commissioner. Today, I am here to reflect the views of the 
National Association of State Mental Health Program Directors, 
NASMHPD, which represent the public mental health authorities 
in the 50 States, as well as the District of Columbia and the 
territories.Permit me to briefly summarize the situation we 
confront. The larger State fiscal crisis is having a severe 
impact on public mental health systems across the United States 
and is certainly being felt in New Jersey. According to 
February 2010 data collected by NASMHPD's Research Institute, 
between fiscal year 2009 and fiscal year 2011, States have been 
forced to cut mental health agency budgets by a combined total 
of $1.82 billion. That estimate reflects reporting from 45 
States.
    Mr. Chairman, to put this in historical context, that 
number probably represents the largest total funding reduction 
to public center mental health services in nearly 50 years. The 
effect of these shortfalls on America's mental health safety 
net, as well as the consumers it serves, can only be described 
as devastating. Some States have been forced to make cuts 
equaling 20 percent of their total mental health spending. In 
the worst hit States, reductions approaching 40 percent are 
being contemplated or have already been implemented.
    As an illustration, in Ohio, the combined State mental 
health cut over the last three fiscal years total over $191 
million. The total percentage reduction equals 36 percent 
across the board.
    To date, the programs hardest hit are indigent care 
initiatives providing mental health services to low-income 
people and uninsured adults, many of whom recently lost health 
insurance coverage in this recession. Let me take a moment to 
give you some specific examples of what these cuts mean in our 
communities.
    In Illinois, Governor Quinn is being forced to contemplate 
a $90 million funding cut to Illinois' Division of Mental 
Health Community Services. Once Medicaid reimbursements 
reductions are included, the proposed State cut would result in 
a 40 percent reduction in community-based mental health 
services statewide. It is estimated that more than 70,000 low-
income persons, including over 4200 children, will lose access 
to mental health care.
    In Kansas, 9 of the State's 27 community mental health 
centers are in the red and may close. Most serve rural health 
professional shortage areas. Furthermore, it is astonishing to 
note that Kansas is actively contemplating a complete freeze on 
all new admissions to the State's public psychiatric hospitals 
for up to a full year.
    In New Jersey, consistent with the United States Supreme 
Court's Olmstead decision, and with Governor Christie's 
support, we are reducing the number of State psychiatric 
hospitals and serving more people with severe mental illnesses 
in the community, closer to family and friends. In fiscal year 
2011, our Division will close Hagedorn Psychiatric Hospital, 
producing a projected savings of $9 million.
    Yet, at the same time, the budget crisis has forced us to 
reduce community contracts and my division was required to make 
targeted cuts to partial care, case management, and jail 
diversion programs. This situation greatly contemplates our 
ability to close Hagedorn. Moreover, in all candor, what keeps 
me up at night is that fiscal year 2012 does not look much 
better than 2011.
    Let me end my testimony by making two larger points. First, 
State mental health agencies nationwide are caught in a policy 
vice. We are losing State and county revenues, while at the 
same time the recession is producing a huge spike in the number 
of people coming to us for mental health care. Twenty States 
are reporting increased demand for both outpatient services, as 
well as acute care hospital services. In Rhode Island, for 
instance, community mental health service centers served nearly 
22,000 people with mental illnesses last year, one of the 
highest totals in its State history.
    Second, although Federal Medicaid FMAP increases approved 
in ARRA have helped temporarily avert even deeper cuts, they 
have not shielded the public mental health system from the 
worst funding reductions in nearly five decades. In addition, 
the new health care reform law will not begin providing health 
insurance to many indigent persons for several years, and many 
of the intensive rehabilitative services these individuals 
require will not be covered by the new insurance exchanges or 
Medicaid.
    In March 2010, Representatives Tonko and Napolitano, along 
with 35 other members of Congress, wrote to this Subcommittee 
requesting a $100 million increase for SAMHSA's Community 
Mental Health Services Block Grant, resulting in a total 
funding level of $520 million. Both NASMHPD and the New Jersey 
Division of Mental Health Services strongly support this 
request.
    Yes, I acknowledge that the Tonko and Napolitano request is 
without precedent, but the scale of the fiscal crisis we 
confront is also unprecedented. The hard fact is that Mental 
Health Block Grant is the only program available to help public 
mental health authorities recover State and county service 
dollars lost during the current fiscal crisis.
    I welcome any questions you may have.
    [Written statement by Kevin Martone follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. [Remarks made off microphone.]
    Next, Michael J. Fitzpatrick, National Alliance on Mental 
Illness.
                              ----------                              

                                           Wednesday, May 12, 2010.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION


                                WITNESS

MICHAEL J. FITZPATRICK, EXECUTIVE DIRECTOR, NATIONAL ALLIANCE ON MENTAL 
    ILLNESS
    Mr. Fitzpatrick. Chairman Obey and members of the 
Subcommittee, I am Mike Fitzpatrick. I am the Executive 
Director of the National Alliance on Mental Illness. I am 
pleased today to offer NAMI's views on the Subcommittee's 
upcoming fiscal year 2011 bill. NAMI is the Nation's largest 
grassroots advocacy organization representing persons with 
serious mental illness and their families.
    I first want to thank the Subcommittee for a long 
bipartisan history of supporting funding for research and 
services for people with serious mental illness. As you know, 
the cost of mental illness to our Nation is enormous.
    I want to summarize NAMI's statement to you by making three 
major points.
    The investments in research at the National Institute of 
Mental Health are critical for our Nation. NAMI joins the ad 
hoc group on medical research recommending $36 billion in 
overall funding for the National Institutes of Health, 
representing a 12 percent increase.
    NAMI also recommends a corresponding 12 percent increase of 
$1.7 billion for the National Institute of Mental Health. This 
increase will enable NIMH to continue supporting two critical 
initiatives that were started using stimulus monies.
    The first is RAISE, Recovery After an Initial Schizophrenia 
Episode. This is the first ever large-scale trial supporting 
early and aggressive treatment, integrating a variety of 
different therapies to reduce symptoms and prevent the gradual 
deterioration or functioning that is characteristic of 
schizophrenia.
    The second project is STARRS, which is the Study to Assess 
Risk and Resilience in Service Members, a joint Army and 
National Institute of Mental Health study of suicide and mental 
health among military personnel.
    Additionally, this 12 percent increase will allow the 
National Institute of Mental Health to continue supporting 
other important research initiatives to find better treatments 
and ultimately a cure for disabling illnesses.
    Our second point is this Subcommittee must address, as you 
just heard from the Commissioner of New Jersey and from 
NASMHPD, the current crisis in funding of the public mental 
health system.
    Mr. Chairman, as our Nation continues to struggle with this 
current economic downturn and States continue to struggle with 
diminished revenue, we see a crisis in America's mental health 
system that we have not seen in our tenure at NAMI over the 
past 31 years. The system is literally collapsing in front of 
us. We echo and have the same numbers that NASMHPD has, the 
cuts of nearly $1.8 billion since 2009. We see cuts in States 
totaling as much as 20 percent and more. Looking at the budget 
numbers in State budgets for the next two or three years, we 
see this picture not changing through 2011, 2012.
    This has led to the elimination of State hospital beds, the 
closure of important, essential mental health services, and 
really has left the burden in communities falling on jails, 
homeless shelters, and emergency rooms as really the backbone 
of the mental health systems. This is tragic and really 
unacceptable.
    To help fill these gaps left by these ill-conceived cuts, 
NAMI strongly recommends a $100 million increase to the Mental 
Health Block Grant for fiscal year 2011. Funding for the Block 
Grant has been frozen at its current level of $420 million 
since fiscal year 2000. An increase is long overdue. While this 
will not make up for the cuts to services on the State side, 
this is an important step that Congress must take to assist our 
most vulnerable citizens.
    NAMI also supports targeted increases in the President's 
budget for the Center for Mental Health Services, including the 
PATH program, the Children's Mental Health program, Suicide 
Prevention Programs under the Garrett Lee Smith Memorial Act, 
and homeless programs at SAMHSA.
    And third, and finally, for fiscal year 2011, the 
Subcommittee should continue the progress it has made in recent 
history in addressing the Social Security claims and appeals 
backlog. Mr. Chairman, people with mental illness and other 
severe disabilities have been bearing the brunt of the backlog 
crisis for disability claims at Social Security. Behind the 
numbers are individuals whose lives have unraveled because of 
this backlog.
    We applaud the work the Subcommittee has done in recent 
history to boost funding to the Social Security Administration. 
We would ask you just to please continue this progress by 
supporting the President's funding recommendations regarding 
the Social Security Administration.
    Thank you for the opportunity to speak to you today.
    [Written statement by Michael J. Fitzpatrick follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. [Remarks made off microphone.]
    Next, Julio Abreu, Coalition for Health Funding.
                              ----------                              

                                           Wednesday, May 12, 2010.

  NATIONAL INSTITUTES OF HEALTH, CENTERS FOR DISEASE CONTROL, HEALTH 
   RESOURCES AND SERVICES ADMINISTRATION, SUBSTANCE ABUSE AND MENTAL 
  HEALTH SERVICES ADMINISTRATION, AGENCY FOR HEALTHCARE RESEARCH AND 
        QUALITY, FEDERAL DRUG ADMINISTRATION, AND INDIAN HEALTH


                                WITNESS

JULIO ABREU, SENIOR DIRECTOR, GOVERNMENT AFFAIRS, MENTAL HEALTH 
    AMERICA, ALEXANDRIA, VIRGINIA, COALITION FOR HEALTH FUNDING
    Mr. Abreu. I have been called worse, Chairman.
    Mr. Obey. [Comments made off microphone.] [Laughter.]
    Mr. Abreu. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Julio. I am President of the Coalition 
for Health Funding and Senior Director of Government Affairs at 
Mental Health America. I am pleased to offer this testimony on 
behalf of the Coalition regarding funding for agencies and 
programs of the U.S. Public Health Service, including NIH, CDC, 
HRSA, SAMHSA, and AHRQ.
    Since 1970, the Coalition has advocated for sufficient and 
sustained discretionary funding for the public health continuum 
to meet the mounting and evolving health challenges confronting 
the American people. We acknowledge and applaud the 
longstanding support of public health programs from the 
Subcommittee, particularly that of the Chairman. And I want to 
echo our deep gratitude for your tremendous leadership.
    Our diverse membership, representing the interest of over 
50 million patients, providers, researchers, and public health 
professionals, supports the belief that the public health 
agencies and programs are essential for improving health and 
health care through greater access, higher quality, lower 
costs, improved safety, faster cures, and ultimately healthier 
people.
    The Coalition's pressing and immediate goals are to: one, 
build the capacity for our public health system; two, address 
America's mounting health needs under the weight of an ongoing 
recession and aging population, a health workforce shortage, 
and rising rates of chronic disease; and, three to support the 
implementation of the Patient Protection and Affordable Care 
Act, a new health care reform legislation, PPACA.
    Given the current fiscal challenges, the Coalition 
appreciates the funding increases proposed in the President's 
fiscal year 2011 budget for public health programs. We are also 
grateful to you and your colleagues for the mandatory funding 
stream for public health, now provided through health reform, 
to augment discretionary funding for the existing public health 
infrastructure.
    We hope Congress will seize the opportunity to increase 
momentum for health system transformation by further investing 
in the public health continuum, building on previous 
discretionary investments in the public health service, and 
making permanent capacity created by ARRA.
    We also hope Congress will resist the urge to look to the 
Mandatory Public Health and Prevention Fund provided in PPACA 
as a means to supplant current discretionary public health 
funding, as this mandatory investment was intended to make 
whole the existing public health infrastructure and support 
innovative cross-cutting programs to transform the ways in 
which public health services are delivered.
    These transformational investments will help lead the 
Nation toward a more community-oriented accountable approach to 
public health, which will in turn decrease our Nation's health 
care costs and make America healthier.
    The public health infrastructure has experienced 
significant erosion over the past several years, despite its 
important role in keeping Americans healthy, productive, and 
secure. Federal spending for public health has been flat for 
nearly five years, and our States around the Country have cut 
more than $392 million for public health programs in just the 
past year. These shortfalls have left communities struggling.
    Federal discretionary investment in public health service 
represents only a fraction of our Nation's total health care 
spending, just 2 percent in 2008 based on expenditure data from 
CMS, even though the public health continuum has the potential 
to slow sustainable growth in mandatory costs. Our Nation's 
lost opportunity to save lives and money through investments in 
the public health continuum is possibly best represented by the 
Medicare program. A study published in Health Affairs finds 
that the causes of Medicare spending growth have changed 
dramatically in two decades, where Medicare's skyrocketing 
costs are now mostly attributable to the treatment of 
preventable chronic conditions such as diabetes, conditions 
that could have been prevented with a more serious investment 
in public health.
    We listened to you, Mr. Chairman. We have been working with 
our other public health organizations and have 300 of them 
signed up with five former surgeon generals urging Congress to 
invest in public health.
    Let me close by saying that while I am not a musician, I 
bet I can get the public health community to join and perhaps 
create a band to go around the Country to make a compelling 
case for the need to invest in public health. Thank you for 
this opportunity, Mr. Chairman.
    [Written statement by Julio Abreu follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. [Remarks made off microphone.]
    Next, James Sykes, AIDS Institute.
                              ----------                              

                                           Wednesday, May 12, 2010.

      CENTERS FOR DISEASE CONTROL, HEALTH RESOURCES AND SERVICES 
           ADMINISTRATION, AND NATIONAL INSTITUTES OF HEALTH


                                WITNESS

JAMES SYKES, DIRECTOR OF GLOBAL PROGRAMS, POLICY AND ADVOCACY, AIDS 
    INSTITUTE
    Mr. Sykes. Good morning, Mr. Chairman and Subcommittee 
members. The AIDS Institute is pleased to be here today to 
comment in support of funding domestic HIV/AIDS and hepatitis 
programs. We thank you for your support of these programs over 
the years and trust that you will do your best to adequately 
fund them in the future in order to provide for and protect the 
health of many Americans.
    HIV/AIDS remains one of the world's worst health pandemics 
in history. To date, nearly 600,000 people have died of AIDS in 
the U.S. Over 1.1 million people in the U.S. are living with 
HIV/AIDS, and there is a new infection every nine and a half 
minutes. Persons of minority races and ethnicities are 
disproportionately affected, as well as the poor. About 70 
percent of those infected rely on publicly funded health care.
    Despite the growing need, domestic HIV/AIDS programs have 
experienced only very minor increases in recent years. We hope 
you will support President Obama's desire to increase funding 
for these important public health programs. Federal funding is 
particularly critical at this time, since State and local 
government budgets are being severely cut during this economic 
downturn, while demand for services are escalating due to the 
fact that people are living longer, people are losing their 
health insurance, and HIV testing programs are identifying more 
people who have HIV.
    Of immediate importance is our request of $126 million in 
emergency funding this year for the AIDS Drug Assistance 
Program. ADAPs provide lifesaving HIV drug treatment to over 
150,000 people, the majority of whom are people of color and 
very poor. Currently, ADAPs are experiencing unprecedented 
growth. The monthly growth rate of nearly 1300 clients is an 
increase of 80 percent from fiscal year 2008.
    Due to the economic crisis, State contributions to the 
programs have dropped from $329 million to $214 million in just 
one year. Meanwhile, the Federal share of the ADAP program has 
dropped to only 49 percent, compared to 69 percent in 2000.
    Due to the lack of funding, States have instituted waiting 
lists and have reduced the number of drugs on their 
formularies, reduced eligibility, and capped enrollment. There 
are currently 1,056 persons in 10 States on ADAP waiting lists 
as of today. In order to address the ADAP funding crisis, which 
will grow much worse in fiscal year 2011, we are requesting an 
increase of $370 million. To address the immediate situation, 
the AIDS Institute requests $126 million of those funds in 
fiscal year 2010 as part of an emergency supplemental.
    We are very pleased that just last week 66 members of the 
House sent a letter to President Obama in support of this 
emergency funding for ADAP.
    For fiscal year 2011, the President requested an increase 
of only $39.5 million, or just 1.7 percent for the entire Ryan 
White Program, which includes ADAP; and no increase for Parts A 
and D of the program.
    The AIDS Institute urges the Subcommittee to consider the 
growing needs of all parts of the Program and provide the 
necessary resources it requires to meet the needs of people 
living with HIV/AIDS in the U.S.
    Nearly two years ago, the CDC increased its estimate of new 
infections per year by 40 percent. In order to reverse that 
trend, the CDC is going to need additional resources so that it 
can scale up HIV prevention. But currently we only allocate 
about 3 percent of our total HIV/AIDS spending on domestic 
prevention.
    Unfortunately, the requested $31 million increase by the 
President is far from what is needed to reduce the number of 
new HIV infections. We would, however, like to commend the 
President for focusing much of this increase on gay men, who 
represent a majority of HIV cases in the U.S. and is the only 
group in which HIV incidence is increasing.
    Investing in prevention today will save money tomorrow. 
Every case of HIV that is prevented saves, on average, $355,000 
of lifetime treatment costs. That translates into nearly $20 
billion in annual future medical costs for the 56,300 new 
infections that occur every year.
    As detailed in our written statement, the AIDS Institute 
supports additional funding for AIDS research at NIH, the 
Minority AIDS Initiative, the CDC's Viral Hepatitis Division. 
We also appreciate the Committee's support for funding of 
syringe exchange and comprehensive sex education programs, two 
proven HIV prevention programs.
    Again, the AIDS Institute appreciates the opportunity to 
appear before you today, and thank you for your continued 
support. Thank you, sir.
    [Written statement by James Sykes follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. [Remarks made off microphone.] [continuing]. Have 
written the Committee asking for increased funding. I am sure 
most of them are consistent, but there are more than a few 
members in Congress who will sign every blessed letter that 
comes along asking for more money, and then they will vote 
against the bill that contains the money when it comes to the 
Floor and kick the hell out of us for saying it contains too 
much money.
    Mr. Sykes. I understand.
    Mr. Obey. So if you can help us to avoid giving hypocrisy a 
bad name, it would be appreciated. [Laughter.]
    Mr. Sykes. Give me the names of those members, sir, and we 
would gladly call on them.
    Mr. Obey. Next, Dr. Heidi Chumley, Health Professions and 
Nursing Education Coalition.
                              ----------                              

                                           Wednesday, May 12, 2010.

                           TITLE VII AND VIII


                                WITNESS

DR. HEIDI CHUMLEY, SENIOR ASSOCIATE DEAN OF MEDICAL EDUCATION, 
    UNIVERSITY OF KANSAS MEDICAL CENTER, HEALTH PROFESSIONS AND NURSING 
    EDUCATION COALITION
    Dr. Chumley. Good morning. My name is Dr. Heidi Chumley, 
and I am a family physician and the Senior Associate Dean for 
Medical Education at the University of Kansas School of 
Medicine.
    Like most academic family physicians, I have a firsthand 
appreciation for HRSA's health profession programs, as they 
have supported my work throughout the various stages of my 
career. So it is a pleasure to testify today on behalf of the 
Health Professions and Nursing Education Coalition, or HPNEC, 
an alliance of more than 60 national organizations representing 
schools, programs, health professionals, and students dedicated 
to ensuring the health care workforce is trained to meet the 
needs of the diverse population.
    I am here to speak with you about the Title VII health 
professions and Title VIII nursing programs, which enhance the 
supply of the diversity and the distribution of health care 
workforce by supporting the education of health professionals.
    In particular, these programs emphasize primary care and 
training in interdisciplinary settings. With the recent 
enactment of health reform legislation, the Nation will need a 
robust, diverse health care workforce to meet the increased 
demands for care.
    HPNEC recommends $600 million to sustain and strengthen the 
existing Title VII and Title VIII programs in fiscal year 2011. 
As you know, PPACA updated and restructured the existing health 
professions programs to improve their efficiency, 
effectiveness, and accountability. The legislation also 
authorized several new programs and initiatives designed to 
help mitigate health workforce challenges.
    Many HPNEC members are enthusiastic about the opportunities 
afforded through these newly authorized workforce programs. As 
a coalition, HPNEC encourages an investment in these new 
programs that supplements, but does not replace, support for 
the existing Title VII and Title VIII programs.
    We are grateful to the Chairman and this Subcommittee for 
the increases provided for many of the health professions 
programs in recent years, and for the Subcommittee's 
longstanding support.
    These investments are crucial to addressing existing and 
looming provider shortages throughout the Country. According to 
HRSA, over 30,000 health practitioners are needed today to 
allay existing shortages. Further, within the next 10 to 20 
years, the Nation faces shortages of 200,000 physicians, 
including at least 46,000 primary care professionals, a million 
nurses, 38,000 pharmacists, 250,000 public health 
professionals, and 40,000 geriatricians and geriatric social 
workers, as well as shortages among dental, allied health, 
mental health, and other providers.
    These shortages, combined with faculty shortages, racial 
and ethnic disparities, and shortages of health professionals 
in rural and other underserved areas will take time to reverse. 
We must make appropriate investments in the education and 
training of health professionals today to truly extend health 
care access to all segments of the population.
    At KMC, where I am from, Title VII and Title VIII grants 
work to alleviate these strains on the system. Primary care 
loans incentivize financially needy students to choose primary 
care; nursing loans help students pursue a diploma, associate, 
baccalaureate, or graduate degree in nursing; and scholarships 
help disadvantaged students pursue a health professions degree.
    In the last five years along, KU has given out over 400 
Title VII and Title VIII funded scholarships and loans to help 
students pursue a career in the health professions.
    Faculty and staff have also benefitted from grants, helping 
boost faculty development in primary care, as well as 
supporting the Central Plains Geriatric Education Center 
Consortium. Additionally, thanks to ARRA, our Minority Centers 
of Excellence Program and our Health Careers Opportunity 
Program can still operate today, providing mentorship and 
guidance to aspiring health professions from diverse 
backgrounds. With this support, over 5,000 students have been 
able to participate in KU's health professions pipeline 
programs.
    In closing, HPNEC's $600 million recommendation for the 
existing health professions programs will not only help sustain 
the expansion of the health workforce supported in recent 
years, but will also help to ensure the programs are able to 
fulfill their mission of improving the supply distribution and 
diversity of health professionals nationwide.
    Thank you.
    [Written statement by Heidi Chumley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you. Appreciate it.
    Lori J. Heim, American Academy of Family Physicians.
                              ----------                              

                                           Wednesday, May 12, 2010.

              HEALTH RESOURCES AND SERVICES ADMINISTRATION


                                WITNESS

LORI J. HEIM, MD, PRESIDENT, AMERICAN ACADEMY OF FAMILY PHYSICIANS
    Dr. Heim. Good morning, Chairman Obey and members of the 
Subcommittee. I am Dr. Lori Heim, family physician from Vass, 
North Carolina. As the President of the American Academy of 
Family Physicians, representing 94,700 family doctors, 
residents, and medical students, I congratulate the Congress on 
the enactment of the Patient Protection and Affordable Care 
Act.
    In order for a successful implementation of that health 
care reform, I urge you, despite what you said, Chairman, to 
increase the Federal investment in primary care workforce. 
Despite the consensus that good primary care is essential for 
genuine health care reform, 65 million Americans--that is about 
one in five--live in primary care shortage areas.
    Not only do we have shortages in primary care physicians in 
practice, but the medical education pipeline is now only 
producing 22.6 primary care physicians, down from 33 percent a 
decade ago. As a result, we have fewer primary care physicians 
being trained to care for the newly insured.
    Health reforms include a number of provisions to increase 
the workforce, including the vital Primary Care Medicine Grants 
authorized through Title VII. We believe a minimum of $600 
million for all of Title VII programs is needed. We also urge 
the Committee to provide $170 million for Title VII Section 747 
primary care training and enhancement programs.
    Physician shortages are particularly hard on rural 
Americans, as they face more barriers to care than their urban 
or suburban areas. Family physicians provide the majority of 
the care for America's underserved and rural populations, so we 
were very pleased with the new Rural Physician Training Grants 
authorized by health reform. We request that you fully fund the 
Title VII Rural Physician Training Grants.
    The AAFP supported the authorization of the innovative 
Teaching Health Centers Program to train primary care residents 
in non-hospital settings, which is where the care is delivered. 
However, if this program is going to be effective, there must 
be grants for planning. We recommend the Committee appropriate 
the full authorized amounts for the Teaching Health Centers 
Developmental Grants of $50 million for fiscal year 2011.
    Another significant barrier to the production of primary 
care physicians is the huge student debt that they have. The 
National Health Service Corps has long provided debt relief to 
primary care physicians and has helped to reduce the health 
disparities. We urge that the Corps receive $414.1 million in 
fiscal year 2011.
    The AAFP commends Congress for authorizing the Primary Care 
Extension Program within the Agency for Health Care Research 
and Quality, as small primary care practices need the kind of 
support that was offered by the Federal Cooperation Extension 
Services to implement innovative and best practices. This new 
program will assist primary care providers to transform their 
practices using effective evidence-based therapies and 
techniques in their practices. The AAFP recommends the 
Committee provide $731 million for AHRQ to provide the funding 
requested in the President's budget, as well as the important 
new Primary Care Extension Program authorized by the health 
reform law at $120 million.
    Thank you very much for the opportunity, sir.
    [Written statement by Lori Heim follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you. Again, let me simply say that I agree 
with everything you said. The problem is there is no way I can 
get there because, in negotiations over the budget resolution 
right now, for instance, one of the offers on the table, in 
order to get people who are reluctant to vote for it to 
actually do so, one of the offers was to reduce domestic 
appropriations by $110 billion over the next five years. That 
is not deep enough for some of our brethren.
    So I would love to provide the dollars you are talking 
about. We do not have the votes for it because we have to live 
under budget ceilings and, as I said earlier, there are a whole 
lot of people who are very comfortable at reducing the deficit 
by cutting this portion of the budget, but not in cutting the 
portions of the budget that have been treated much more 
gingerly the last ten years.
    But thank you for coming.
    Dr. Heim. Thank you. And we will help take that message 
forward because, otherwise, without the workforce, we will not 
be able to take care of the people.
    Mr. Obey. You are absolutely right.
    Next, Wayne Riley, Association of Minority Health 
Professions Schools.
                              ----------                              

                                           Wednesday, May 12, 2010.

        HEALTH RESOURCES AND SERVICES ADMINISTRATION--TITLE VII


                                WITNESS

WAYNE J. RILEY, MD, MPH, CHAIRMAN, BOARD OF DIRECTORS, ASSOCIATION OF 
    MINORITY HEALTH PROFESSIONS SCHOOLS, INC.
    Dr. Riley. Good morning, Mr. Chairman, members of the 
Subcommittee. It is my pleasure to be here today. My name is 
Wayne Riley, President and Chief Executive Officer of Meharry 
Medical College, Nashville, Tennessee. I am here today in my 
role as Chair of the Association of Minority Health Professions 
Schools. AMHPS, as it is called, represents 12 of the Nation's 
superb HBCU academic health science centers. We train graduates 
in dentistry, pharmacy, medicine, and veterinary medicine. Mr. 
Chairman, these institutions are indeed national treasures.
    We applaud the passage of health care reform, as some of my 
colleagues have already mentioned, but we do want to alert the 
Committee that, with the passage of health care reform, there 
are looming shortages of health professionals to take care of 
Americans. We are particularly concerned about the shortage 
among minority groups. For example, although African-Americans 
represent 13 percent of the Nation's population, only 3 percent 
of health care professionals are African-American. The similar 
statistics are evident in Latino and Native American and Asian 
Pacific Islanders as well.
    Now, sometimes I get the question: Why are you guys always 
up here asking for help? Well, it is simple. Minority-serving 
institutions do not have the big endowments; we do not have big 
fat donors that give us millions of dollars to do our work. But 
we are private institutions with a very public mission, and we 
take that mission very seriously. So much so that our 
institutions are among the leaders in producing primary care 
physicians.
    Next week, I will graduate a class of Meharry physicians, 
of which over 50 percent are going into primary care fields, 
the kinds of doctors our Nation needs.
    So the programs that this Subcommittee has jurisdiction 
over are very important to us. The first being Title VII Health 
Profession Training. As you know, there were some cuts between 
2006 and here, cuts anywhere from 45 to 90 percent in COE and 
HCOP. Those cuts have partially been restored, and we 
appreciate your leadership, Mr. Obey, on restoring some of 
this. However, we do request a consideration of the 
Subcommittee and the Committee and the Congress to restore the 
program to about the $300 million level, which would add an 
incremental increase of $33 million to $35 million 
respectively, in Title VII.
    The other program particularly germane to our mission is 
the National Center for Research Resources. That is the 
Extramural Facilities Program which helps to beef up our 
laboratories and clinical facilities on our campuses. We are 
recommending $50 million for extramural facilities construction 
and we remind the Subcommittee that the first 25 percent of 
such appropriations are earmarked or set aside, rather, for 
institutions of emerging excellence like the 12 I represent.
    Also want to highlight the work of the Research Careers and 
Minority Institutions Program, again, that allows us to focus 
our work there.
    One of the great byproducts of health care reform, Mr. 
Chairman, is the fact that we now have a new institute, the 
National Institute of Minority Health and Health Disparities, 
which was elevated through the landmark legislation. This is 
outstanding news, but we urge the Committee to fund it at an 
institute level of approximately $500 million given the fact 
that it has been given significantly enhanced authority and 
power over Minority and Health Disparities work.
    Mr. Chairman, we also ask consideration to increase the 
HBGI program, which trains doctoral students at our 
institutions.
    We appreciate the work of this Committee. Mr. Chairman, we 
salute you for your distinguished service to Congress and our 
Nation in the 7th Congressional District of Wisconsin. You have 
been a champion of these programs and we salute you. Thank you, 
Mr. Chairman.
    [Written statement by Wayne J. Riley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you much.
    Next, Debbie Hatmaker, American Nurses Association.
                              ----------                              

                                           Wednesday, May 12, 2010.

     HEALTH RESOURCES AND SERVICES ADMINISTRATION NURSING PROGRAMS


                                WITNESS

DEBBIE HATMAKER, PHD, RN-BC, SANE-A, FIRST VICE PRESIDENT, BOARD OF 
    DIRECTORS, AMERICAN NURSES ASSOCIATION
    Ms. Hatmaker. Good morning, Mr. Chairman, distinguished 
members of the Subcommittee and congressional staff. I am 
Debbie Dawson Hatmaker. I am here as First Vice President of 
the American Nurses Association, the largest nursing 
organization in the Country that represents the interest of the 
Nation's 3.1 million registered nurses. I have been an RN for 
31 years, practicing in a variety of settings, and it is an 
honor to be with you today to talk about funding for the Title 
VIII programs.
    ANA appreciates the continued support of the Subcommittee, 
but we remain concerned that Title VIII funding levels have 
been insufficient to address the growing nursing shortage. In 
preparation for the implementation of health reform initiatives 
which ANA strongly supported, we believe there will be even 
greater demand for nurses, deeming funding even more essential. 
ANA asks you to meet today's shortage with a relatively modest 
investment of $267.3 million in Title VIII programs.
    Registered nurses are fundamental to the critical shift 
that will occur in health services delivery. Title VIII 
programs recruit new nurses into the profession, promote career 
advancement, and improve patient care delivery. These programs 
also direct RNs into areas with the greatest need, including 
public health, community health centers, and disproportionate 
share hospitals.
    Today, the nursing shortage continues to impact patient 
care. HRSA released projections that the Nation's nursing 
shortage would grow more than one million nurses by the year 
2020, and that all 50 States would experience a shortage of 
nurses to varying degrees by the year 2015. The U.S. must 
graduate approximately 90 percent more nurses to meet this 
demand.
    This growing shortage is already having a real impact on 
the ability to provide quality care. A study in the Journal 
Medical Care provides new evidence of the economic value of 
appropriate RN staffing. The findings demonstrate that as 
nursing staffing levels increase, patient risk of complications 
and hospitalization stays decrease, resulting in medical cost 
savings, improved national productivity, and lives saved. The 
study suggests that adding 133,000 RNs to the acute care 
hospital workforce would save 5,900 lives per year. These are 
not just numbers; these are real avoidable deaths.
    In order to meet our Nation's health care needs, an 
integrated national health care workforce must be put into 
action. The ability of advanced practice registered nurses to 
provide high quality, cost-effective care has been widely 
recognized. Title VIII funds more than 60 percent of U.S. nurse 
practitioner education programs and assists 83 percent of nurse 
midwifery programs. Over 45 percent of the nurse anesthesia 
graduates supported by this program go on to practice in 
medically underserved communities.
    A study published in the Journal of Rural Health showed 
that 80 percent of the nurse practitioners who attended a 
program supported by Title VIII chose to work in a medically 
underserved or health profession shortage area after 
graduation.
    As an administrator of a clinical nursing program, I 
experience the difficulty in finding clinical sites for nursing 
students. One way to combat this problem is to support nurse 
managed health clinics. With more than 250 clinics reporting 
over 2.5 million annual client encounters, these clinics also 
serve as sites for nursing education. Led by advanced practice 
nurses, the nurse managed care model is especially effective in 
disease prevention, early detection, and management of chronic 
conditions.
    ANA thanks you for the opportunity, Mr. Chairman, to 
testify and appreciates your commitment to nursing. We urge you 
to fund the fiscal year 2011 Title VIII nursing programs at 
$267.3 million. Thank you so much.
    [Written statement by Debbie Hatmaker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Cheryl Phillips, American Geriatrics Society.
                              ----------                              

                                           Wednesday, May 12, 2010.

                      AMERICAN GERIATRICS SOCIETY


                                WITNESS

CHERYL PHILLIPS, MD, AGSF, PRESIDENT, AMERICAN GERIATRICS SOCIETY
    Dr. Phillips. Again, thank you, Chairman Obey and members 
of this special Subcommittee. This is a remarkable opportunity 
and I wish to take advantage to talk about funding for fiscal 
year 2011 to improve care for America's older adults.
    My name is Cheryl Phillips, and I am a fellowship-trained 
geriatrician, a rare breed these days and becoming rarer. I am 
also President of the American Geriatrics Society, the Nation's 
largest professional organization which represents the 
interdisciplinary health care professionals serving America's 
older adults, particularly those with complex chronic needs, 
medical conditions, frailty, and the risk for functional 
decline.
    The 2008 Institute on Medicine Report that I know you are 
all familiar with, Retooling for an Aging America, noted the 
severe shortage of geriatric health professionals and called 
for initiatives to increase recruitment into geriatrics and 
ensure all health care professionals are adequately trained to 
serve America's older adults.
    If we are going to fulfill our promises of health care 
reform that have been articulated in the Act, we need 
sufficient and sustained Federal investment to educate and 
train geriatric health professionals across all disciplines, 
which includes physicians, nurses, social workers, mental 
health professionals, pharmacists, therapists, all of which 
make up this geriatric team--it is indeed a team sport--which 
has demonstrated both the improvement in quality and cost-
reduction and cost-effectiveness for this very vulnerable and 
fragile group of individuals that we serve.
    The Patient Protection and Affordable Care Act authorizes 
geriatric health professions programs under Titles VII and 
VIII, as we have been talking about with the previous speakers. 
Specifically, AGS requests funding for the fiscal year 2011 in 
the following areas: $49.7 million for Title VII Geriatrics 
Health Professions Programs.
    There are three key Federal initiatives under this Title 
VII appropriations area. One is called the Geriatric Academic 
and Career Awards, also known as GACAs; second are the 
Geriatric Education Centers, one of which is in Marquette 
University in Milwaukee that has served over 50,000 individuals 
in the 15 years of its operation in reducing thousands and 
thousands of dollars of medical costs for the population 
served; and then also the Geriatric Health Faculty Fellowships.
    All of these are required and essential to create the next 
generation of health care professionals in order to serve the 
increasing numbers of seniors. These programs have been 
underfunded and, in fact, as has been mentioned earlier, there 
was no funding in 2006.
    We are also asking for a relatively small $3.34 million--
although in these days every penny counts, I know. But this is 
specific funding for direct care workforce training. This is 
the silent army of workers that is often unrecognized in 
training programs. These are those individuals who do the 
direct care, the bedside care, often unlicensed, but need 
training for recruitment, for skills enhancement, and for 
sustenance to maintain this growing body of need for our elder 
Americans.
    We are asking for $15.7 million for Title VIII, as was just 
previously mentioned, specifically for the geriatric nursing 
workforce. We recognize that the nursing personnel must receive 
adequate education and training to serve all of our frail 
Americans; and specifically 200 traineeships for advanced 
practice nurses.
    Lastly, briefly mentioning the National Institute on Aging. 
It is the NIA funding that is essential to make advances today 
that lead to higher quality and cost-efficient care for 
tomorrow. We request that funding be restored to 2003 fiscal 
year funding levels, taking in account medical inflation.
    In closing, geriatrics is at a critical juncture. Our 
Nation is facing an unprecedented increase in the number of 
older patients with complex health needs. We acknowledge the 
work that you have done. We appreciate your past commitment, 
your continued commitment, and on behalf of the American 
Geriatrics Society, we thank you for your continued support for 
the health and quality of life for older Americans.
    Thank you very much.
    [Written statement by Cheryl Phillips follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Peggy Troy, National Association of Children's 
Hospitals.
                              ----------                              

                                           Wednesday, May 12, 2010.

              NATIONAL ASSOCIATION OF CHILDREN'S HOSPITALS


                                WITNESS

PEGGY TROY, RN, MSN, PRESIDENT AND CEO, CHILDREN'S HOSPITAL AND HEALTH 
    SYSTEM, WISCONSIN, NATIONAL ASSOCIATION OF CHILDREN'S HOSPITALS
    Ms. Troy. Chairman Obey and members of the Subcommittee, 
thank you for the opportunity to testify today in support of 
Children's Hospitals Graduate Medical Education, CHGME. I am 
Peggy Troy, President and Chief Executive Officer of Children's 
Hospital and Health System of Wisconsin. I am here today on 
behalf of the National Association of Children's Hospitals and 
the 60 independent children's teaching hospitals that qualify 
for CHGME funding.
    Congress established the CHGME program in 1999 to address a 
disparity in Federal graduate medical education support that 
existed between adult teaching hospitals and independent 
children's hospitals. Because our hospitals treat kids, and not 
the elderly, they are largely excluded from the predominant 
payer of graduate medical education, Medicare.
    Prior to CHGME, children's teaching hospitals received less 
than .5 percent of the Federal GME support that adult teaching 
hospitals received. Thanks to the Subcommittee's leadership and 
the broad bipartisan congressional support, the CHGME program 
currently provides about 80 percent of the GME that Medicare 
provides to trained adult physicians.
    CHGME funding is critical to the future of pediatric 
medicine and access to care. This funding has allowed 
children's hospitals to address a large gap that exists between 
a child's need for pediatric subspecialty care and the supply 
of pediatricians who are trained for their unique needs.
    CHGME has shown remarkable success in erasing the decline 
of the number of pediatric residencies that existed prior to 
its enactment. It has enabled children's hospitals to sustain 
and expand our residency programs at a time of national 
specialist workforce shortages in pediatrics. In fact, 
freestanding children's hospitals that receive this funding 
have accounted for 65 percent of the growth in pediatric 
specialty programs.
    To give you an idea of the impact, since 1999, prior to the 
enactment of the CHGME, Children's Hospital of Wisconsin had 65 
pediatric residents rotating through our program. This past 
year we trained 113 pediatric medical and dental residents.
    You may be interested to know that the leading cause of 
absenteeism for children from schools today is dental pain. So 
it is important we also consider the dentists in this.
    Because we now have dedicated CHGME funding for our 
training programs, we can target other resources to better 
serve all children in our regions. These funds provide vital 
primary care training for our pediatric residents at the 
Downtown Health Center in Milwaukee. The Center serves as a 
medical home for 5400 low-income vulnerable children every 
year. Because of this experience, half of our graduating 
residents go into primary care and about a quarter of them 
serve in urban and rural underserved areas.
    CHGME funding is critical. It ensures that the safety net 
children's hospitals, like us, can continue to care for all 
children, irrespective of their parents' ability to pay. Nearly 
50 percent of all of our services at Children's in Milwaukee is 
supported by Medicaid. Similar figures exist for the 
freestanding children's hospitals across our Nation.
    In 2006, Congress reauthorized the CHGME program with 
overwhelming bipartisan support, providing $330 million in 
authorized funding. Last year, the House approved an 
appropriation of $320 million for the program, $10 million 
above the 2009 funding level.
    The final funding level for CHGME in 2010 was $317.5 
million, and President Obama maintained this funding level in 
his fiscal year 2011 budget request. We deeply appreciate the 
support of this program and what it has received by the members 
of this Subcommittee, and, Chairman Obey, we personally really 
appreciate all the support that you have given for the health 
care and education needs of the citizens across the Country.
    We are grateful for the leadership of you and Ranking 
Member Tiahrt for supporting this program.
    CHGME is a targeted, fiscally responsible, slow growth 
program that operates under extensive data reporting 
requirements. CHGME is important to the Nation's children's 
hospitals and is absolutely critical to children's health and 
the future of pediatric medicine. Our training program 
represents less than 1 percent of all hospitals, but trains 35 
percent of all pediatricians, 50 percent of all pediatric 
specialists, and a great majority of the researchers.
    As our workforce prepares for the increased volume as a 
result of health care reform, this is going to play a very, 
very important role. We thank you and the members of this 
Committee for your support.
    You have heard today from many of the children's programs, 
the safety net programs. Health and education are inextricably 
linked. We appreciate your support for this and we would hope 
that you would guarantee the success of the future of the CHGME 
program by appropriating the fully authorized level of $330 
million in fiscal year 2011.
    Thank you very much for your support.
    [Written statement by Peggy Troy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you. The Committee will recess until 2:00.
                              ----------                              

                           Afternoon Session

                              ----------                              

                                           Wednesday, May 12, 2010.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

    Mr. Obey. Good afternoon, everybody. The Committee will 
resume its sitting.
    Mr. Rehberg, did you have anything you wanted to say?
    Mr. Rehberg. No, let's get on.
    Mr. Obey. Okay. I am for that.
    Our first witness this afternoon will be Eric Rose from the 
Alliance for Biosecurity. And as I said this morning, I am 
going to have to be very strict with the four-minute rule 
because otherwise people at the end will not get to testify, 
because we have another meeting a 4:00 p.m. and somebody is 
going to call a roll call on the House Floor, too, you can bet. 
So please proceed.
                              ----------                              

                                           Wednesday, May 12, 2010.

  CENTERS FOR DISEASE CONTROL AND PREVENTION, NATIONAL INSTITUTES OF 
                                 HEALTH


                                WITNESS

ERIC A. ROSE, M.D., CO-CHAIR, ALLIANCE FOR BIOSECURITY
    Dr. Rose. Mr. Chairman and Members of the Subcommittee, I 
am Eric Rose, the CEO of Siga Technologies and Co-Chair of the 
Alliance for Biosecurity. It is a pleasure to be with you today 
to provide you with my impression of how the United States 
Government and specifically BARDA is handling a critical 
national security mission.
    We at Siga develop novel biodefense countermeasures to 
treat and prevent serious infectious diseases. While many have 
criticized the perceived slow pace of development of critically 
needed novel defense countermeasures, our experience has been 
that the substantial Federal investment in biodefense is 
beginning to bear fruit less than seven years after BioShield 
enactment and less than four years after the creation of BARDA.
    We at Siga have pursued the development of a treatment that 
has been sought for hundreds of years, namely an oral drug to 
cure smallpox. The United States has stockpiled enough smallpox 
vaccine for the entire Nation, but the vaccine cannot treat the 
potentially large number of symptomatic disease victims in the 
event of a surprise attack whose expected mortality rate would 
be 30 percent.
    We are now producing commercial scale validation batches of 
our drug candidate which we hope will soon be added to the 
Strategic National Stockpile.
    The Alliance for Biosecurity is a collaboration among 
pharmaceutical and biotechnology companies that is working in 
the public interest to improve prevention and treatment of 
biological threats. The H1N1 pandemic has given us all a better 
sense of how quickly biological threats can spread. Fortunately 
in that case, the consequences of mortality and morbidity were 
minimal.
    Most large pharmaceutical companies have chosen not to 
develop biological countermeasures, while small biotechnology 
companies have become heavily engaged. These financially 
fragile enterprises must survive the so-called valley of death, 
the significant product development hurdles between basic 
research and procurement, in order to bring safe and effective 
medical countermeasures to the government for purchase.
    Congress appropriated $5,600,000,000 in 2003 to Project 
BioShield to fund potential countermeasure procurements, while 
three years later it created BARDA with a separate advance 
development budget to ensure a pipeline of novel, safe, 
effective and procurable countermeasures.
    Our experience with BARDA leadership has been 
overwhelmingly positive. I have interacted with Dr. Lurie and 
Dr. Robinson and many others about the state of play for 
emerging biotech companies like ours and how their decisions 
affect the marketplace. They have been responsive and 
interested and are gaining traction in the organization to 
deliver on its critical mission.
    We note that the December, 2008 report of the 
Congressionally established Commission on the Prevention of 
Weapons of Mass Destruction, Proliferation and Terrorism found 
that ``it is more likely than not that a weapon of mass 
destruction will be used in a terrorist attack somewhere in the 
world by the end of 2013,'' most likely a bio-weapon.
    With respect to appropriations, we encourage that even in 
this challenging budget environment, the need to sustain and 
even strengthen BARDA's advanced development funding is 
understood well.
    However, the transfer of BioShield resources to shore up 
this funding is counterproductive to the Nation's overall 
biodefense effort. This is because diversion of funds for 
acquisitions from BioShield clearly disincentivizes private 
investment in this sector at a time when increased private 
sector effort and funding is clearly critical.
    We at the Alliance urge the Committee not to transfer 
additional dollars out of the BioShield reserve fund, and 
instead to maintain the fund balances as guarantees that future 
procurements will have sufficient resources available.
    Let me stop there and invite your questions.
    [Written statement by Eric A. Rose, M.D. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Let me say that I think you will find me asking 
virtually no questions because if we take any time at all, 
people are not going to get done.
    I thank you for coming.
    Dr. Rose. Sure. Thank you.
    Mr. Obey. Let me suggest that since we have a vote on that 
Members go vote and let's just keep the Committee running and 
that way I will go vote after you hurry back so we can avoid 
stiffing somebody. Okay?
    Mr. Moran. I think it is a series of votes, though. There 
are four votes, that is the problem.
    Mr. Obey. Oh, wonderful. Well, all right. In that case, we 
will go until we are dangerously near missing the vote. 
[Laughter.]
    Next, Ronald Tankersley, American Dental Association.
                              ----------                              

                                           Wednesday, May 12, 2010.

                     NATIONAL INSTITUTES OF HEALTH


                                WITNESS

RONALD L. TANKERSLEY, DDS, PRESIDENT, AMERICAN DENTAL ASSOCIATION
    Dr. Tankersley. Good afternoon. I am Ron Tankersley, a 
practicing oral surgeon and President of the American Dental 
Association. On behalf of the ADA's 157,000 member dentists, 
thank you, Mr. Chairman and Members of the Subcommittee for the 
opportunity to comment on the 2011 appropriations for Federal 
dental programs.
    The ADA last testified before the Committee in 2006. Since 
that time, many oral health programs have made great advances, 
but much remains to be done to help reduce oral disease and 
increase access to dental care for those with untreated 
disease.
    Since 2005, the National Institute of Dental and 
Craniofacial Research has established research networks to 
answer the questions that private dentists face every day in 
their practices. These networks allow for the rapid translation 
of scientific advances to clinical practice.
    The NIDCR is also leading the investigation into salivary 
diagnostics. This research indicates that there is a strong 
possibility that saliva can one day be used to screen for 
breast, prostate, oral and pancreatic cancer, as well as detect 
cardiovascular disease, drug usage and exposure to diseases 
like anthrax. As a diagnostic tool, this could dramatically 
reduce cost and invasive procedures.
    However, the most common of the oral diseases, dental 
caries or tooth decay, remains the most prolific communicable 
disease in the world. Even though it is preventable, it is 
still a major problem. Childhood caries are epidemic among the 
under-served populations, especially Native Americans. The ADA 
urges the Committee to fund NIDCR at $463,000,000 to continue 
its critical research.
    The Committee's past support has allowed general dentists 
and pediatric dental residency programs to remain stable and 
strong. The new healthcare reform law adds funding for public 
health dental residencies. This could not have happened at a 
more opportune time because there are still three States with 
fewer than 10 pediatric dentists and there are only 180 
certified public health dentists in America.
    The ADA recommends that training in pediatric and public 
health dentistry programs be funded at the authorized amount of 
$30,000,000.
    The ADA has said for many years that the Nation cannot 
drill and fill its way out of the epidemic of untreated dental 
disease.
    Mr. Obey. I thought you were getting into another subject 
there. [Laughter.]
    Dr. Tankersley. We think it is catchy.
    But there are viable solutions for preventing disease 
through community water fluoridation, early applications of 
dental sealants and varnishes, and establishing dental homes 
for children, and last but not least, oral health literacy 
programs. These proven cost-effective measures can dramatically 
reduce oral disease.
    The new healthcare law includes several provisions for 
prevention and research programs in the CDC's Division of Oral 
Health. The ADA recommends $33,000,000 to fully fund the 
Division's State Infrastructure Grant Program, and also help 
communities establish or rebuild their community fluoridation 
systems for their water supplies.
    Mr. Chairman, I would be remiss if I did not note the 
personal interest that you have taken to improve oral health in 
your State and in this Country. We appreciate your recognition 
of how funding for small clinics, local dental sealant 
projects, where Federal dental programs can improve oral health 
outcomes in the dental workforce.
    You have been a wonderful champion for oral health in this 
Country and we will greatly miss you, and thank you for the 
opportunity to testify.
    [Written statement by Ronald L. Tankersley, D.D.S. 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Obey. Thank you very much. I appreciate your coming.
    Next, Daniel Church, Hepatitis Appropriations Partnership.
                              ----------                              

                                           Wednesday, May 12, 2010.

               CENTERS FOR DISEASE CONTROL AND PREVENTION


                                WITNESS

DANIEL CHURCH, ADULT VIRAL HEPATITIS PREVENTION COORDINATOR, 
    MASSACHUSETTS DEPARTMENT OF PUBLIC HEALTH
    Mr. Church. Good afternoon, Chairman Obey and Members of 
the Subcommittee. I am Dan Church, the Adult Viral Hepatitis 
Prevention Coordinator for the Massachusetts Department of 
Public Health. I am here representing the Hepatitis 
Appropriations Partnership and the National Alliance of State 
and Territorial AIDS Directors.
    Thank you for allowing me to address you today. I am here 
to speak to you about viral hepatitis. Viral hepatitis is a 
group of contagious liver diseases that can lead to life-long 
infection. There are over 5 million Americans chronically 
infected. It is the leading cause of liver disease, liver 
cancer and liver transplantation. It is also the most common 
cause of death in persons infected with HIV.
    Unfortunately, two thirds of those infected do not know it 
because symptoms often don't occur until irreversible and 
potentially fatal liver damage has occurred. Chronic hepatitis 
B and C infections cost the United States approximately 
$16,000,000,000 each year. Experts estimate that baby boomers 
account for two out of every three cases of chronic hepatitis 
C. If we do nothing to increase screening, the cost of these 
diseases will skyrocket and the American taxpayer will foot the 
bill as this cohort ages into Medicare in the next decade.
    In Massachusetts, it is estimated that over 100,000 people 
are living with hepatitis C virus alone, most of whom are not 
aware of their infection. Since 2002, we have had 8,000 to 
10,000 newly diagnosed cases of hepatitis C and 2,000 cases of 
hepatitis B reported to the Department of Public Health each 
year.
    Since 2005, there has been an alarming increase in the 
numbers of people under the age of 25 being reported with 
chronic hepatitis C infection, indicating a new epidemic of 
disease largely due to heroin use among youth.
    Despite this remarkably high disease burden both in 
Massachusetts and nationally, the only dedicated Federal 
funding for viral hepatitis is $19,000,000 to CDC's Division of 
Viral Hepatitis. State health departments receive a total of 
$5,000,000 that averages to $90,000 per jurisdiction. This 
provides for only one staff person and no money for core 
prevention services such as hepatitis education, testing, 
vaccination for hepatitis A and B, surveillance and referral 
into medical management and care. I am that staff person in the 
Massachusetts Department of Public Health.
    It is important to note that because of such minimal 
funding, CDC cannot implement a comprehensive prevention 
approach such as we have for other infectious diseases. 
Additionally, there is no funding for a national surveillance 
system so that we can understand the impact of these diseases 
and plan our prevention programs accordingly. We must rely on 
estimates from a national household survey from 2002 that did 
not include two highly impacted populations: homeless and 
incarcerated people.
    The President's fiscal year 2011 budget proposes an almost 
$2,000,000 increase for a total of $21,000,000. While we laud 
this increase in a time of decreasing resources, it is 
insufficient to address the chronic diseases of this magnitude. 
We are asking for an increase of $30,700,000 for total of 
$50,000,000 for the Division of Viral Hepatitis. We are not 
asking for creation of a separate infrastructure, but rather to 
integrate into existing infectious disease programs such as 
HIV, STDs, and tuberculosis. Unfortunately, funding to support 
this integration is largely not available.
    If we had the resources to test those at risk, the good 
news is that there are effective treatments to manage, and in 
the case of hepatitis C, to clear the virus. There are also new 
therapies for both hepatitis B and C in the pipeline. The 
Institute of Medicine recently issued a report, Hepatitis and 
Liver Cancer: A National Strategy for Prevention and Control of 
Hepatitis B and C.
    I was a member of the panel that authored the report. The 
report attributes the lack of knowledge and awareness among the 
American public and healthcare providers, and large health 
disparities, to the lack of dedicated resources and high 
mortality rates. Without concerted efforts to respond, 
Americans will continue to be infected and fail to be 
identified, diminishing their quality of life and life 
expectancy. I urge you to invest in the prevention of these 
diseases so that we may one day control these burgeoning 
epidemics.
    Thank you again for allowing me to speak with you today.
    [Written statement by Daniel Church follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Let's keep going. Janel Wright, American Diabetes 
Association.
                              ----------                              

                                           Wednesday, May 12, 2010.

  CENTERS FOR DISEASE CONTROL AND PREVENTION, NATIONAL INSTITUTES OF 
  HEALTH, NATIONAL INSTITUTE OF DIABETES, DIGESTIVE AND KIDNEY DISEASE


                                WITNESS

JANEL WRIGHT, NATIONAL ADVOCACY COMMITTEE CHAIR, AMERICAN DIABETES 
    ASSOCIATION
    Ms. Wright. Mr. Chairman, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify today.
    As someone who has lived with diabetes for nearly 35 years, 
I am proud to represent the American Diabetes Association, 
nearly 24 million Americans with diabetes, and 57 million with 
pre-diabetes.
    The Centers for Disease Control and Prevention have 
identified diabetes as a disabling, deadly epidemic on the 
rise. Between 1980 and 2007, its prevalence increased by 300 
percent. Its total cost is over $218,000,000,000 a year. During 
the four minutes I will be speaking to you, 12 Americans will 
be diagnosed with diabetes. Today, 55 Americans will go blind, 
120 will enter end-stage kidney disease programs, and 230 will 
undergo an amputation because of diabetes.
    If we do not take action to stop diabetes, one out of three 
of our children will face a future with diabetes. And for 
children in minority communities, it is close to one in two.
    Despite these numbers, there is hope. Thank you for 
consistently funding vital HHS programs, including the National 
Institute of Diabetes, Digestive and Kidney Disease at the NIH 
and the CDC's Division of Diabetes Translation to help reduce 
the overwhelming burden of diabetes.
    Because of this investment, our knowledge of the disease 
has been expanded and the critical work towards ending this 
epidemic can continue. As you consider fiscal year 2011 
appropriations, we urge you to make diabetes a priority by 
increasing funding for these essential research and prevention 
programs proportionate to the magnitude of diabetes in our 
Country. And by doing so, changing the future and destiny of 
diabetes in America.
    NIDDK continues to make major discoveries, including the 
ability to predict type 1 diabetes and new drug therapies for 
type 2. Because of advances in treatment, my hemoglobin A1c, 
which provides a snapshot of how well my disease is managed, 
went from 12.9 to 5.9. Each point I lower my A1c translates to 
a 40 percent better chance to avoid the devastating 
complications of diabetes.
    There is still so much work to do. Scientists stand ready, 
willing and able to take diabetes research to the next level. 
The $2,200,000,000 we are requesting for 2011 will allow the 
NIDDK to act on promising research opportunities and ultimately 
move us closer to the cure.
    Stopping diabetes also means transforming new discoveries 
into new ways to prevent the disease. CDC's DDT works to 
eliminate the preventable burden of diabetes. DDT has a proven 
record of success through community-based prevention programs, 
national diabetes surveillance, and translational research. But 
DDT is woefully under-funded.
    The Association is requesting $86,000,000 in 2011 funding 
for the DDT so these vital programs can reach more Americans at 
risk for the disease and its complications. DDT works to speed 
effective interventions to local communities. For example, 
NIDDK's Diabetes Prevention Program found modest weight loss 
prevented type 2 diabetes by 58 percent in patients at high 
risk. DDT moved this program into community settings and 
improved upon the trial, achieving the same astounding results 
for less than $300 a year.
    Congress recognized the importance of this program by 
authorizing the National Diabetes Prevention Program in the 
recently passed health reform law which, when funded, will 
expand this successful program. We acknowledge the 
Subcommittee's leadership in the implementation of the newly 
created Prevention in Public Health Fund, and respectfully 
request your support of $80,000,000 in 2011 for implementation 
of the NDPP through the fund.
    As you consider the 2011 appropriations for NIDDK and the 
DDT, we ask you to consider diabetes as an epidemic, growing at 
an astonishing rate, which will overwhelm our healthcare system 
with tragic consequences. To change this future, we must 
increase our commitment to research and prevention to reflect 
the burden diabetes poses both for us and for our children.
    Thank you.
    [Written statement by Janel Wright follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much.
    And I hate to do this, but I have to go vote and we will be 
back as soon as the votes are over.
    [Recess.]
    Next, we have Scott Kneser from the American Heart 
Association. He is from a place called Wausau, Wisconsin. 
[Laughter.]
                              ----------                              

                                           Wednesday, May 12, 2010.

    NATIONAL HEART, LUNG AND BLOOD INSTITUTE, NATIONAL INSTITUTE OF 
                   NEUROLOGICAL DISORDERS AND STROKE


                                WITNESS

SCOTT KNESER, VOLUNTEER, AMERICAN HEART ASSOCIATION
    Mr. Kneser. Mr. Chairman and Members of the Subcommittee, I 
thank you for this opportunity to share my story and to 
advocate for increased funding for heart disease and stroke 
research, prevention and treatment.
    As the Chairman has mentioned, my name is Scott Kneser. I 
am from Wausau, Wisconsin. I am a proud constituent of the 
Seventh Congressional District of Wisconsin, which is Chairman 
Obey's District. I am an accountant for the hospital, but more 
importantly, thanks to NIH-supported research, I am a heart 
disease survivor. I am also a volunteer for the American Heart 
Association, where I try to help other people like myself.
    Chairman Obey, when you announced your retirement last 
week, you expressed your hope that you had made a difference 
during your 41 years in the House of Representatives. I am here 
to tell you that you have made a difference through your 
continued support of heart disease research and prevention 
programs. I am living proof of how your investment in NIH can 
lead to longer, more productive lives.
    My battle with heart disease began in 1982 when I was 
diagnosed with hypertrophic obstructive cardiomyopathy, a 
genetic defect with a mitral valve prolapse and a heart murmur. 
In layman's terms, the main pumping chamber of my heart was 
enlarged and I had a valve that did not close properly. This 
condition caused blood to leak from my mitral valve and 
diminish my blood flow, creating a decrease in my activity 
level. In 2005, I became more symptomatic and experienced 
increased fatigue during normal activity like climbing stairs.
    My doctors determined that I needed a type of surgery 
called septal myectomy. During this procedure, my surgeon went 
through my aortic valve and carved out the enlarged section of 
muscle on my septum which separates my heart's chambers to 
improve my blood flow.
    Also at this time, I had an implanted cardio defibrillator 
placed in my chest to regulate my irregular heartbeats that 
were discovered during an EKG. This amazing device, a result of 
your investment in the NIH, keeps me alive by regulating my 
heartbeat. If I have more than five consecutive irregular 
heartbeats, the ICD shocks my heart back into a normal rhythm. 
I can even hold a magnet over my ICD, which uploads the data on 
my heart. This data is then transferred to my cardiologist via 
the telephone lines.
    Not long ago, the only solution to my condition was a heart 
transplant, but thanks to advances in medical research, I am 
recovered from my surgery and today I enjoy a 30 percent 
increase in my blood flow and my energy level has improved 
substantially. I can still run up and down the basketball court 
refereeing high school basketball games.
    As a heart disease survivor, I have also benefitted from 
other advances such as color flow Doppler echocardiograms, 
which improve the non-invasive images of the heart and blood 
flow. And the gold standard for diagnosing heart problems, a 
heart catheterization, no longer requires an overnight hospital 
stay.
    Despite these advances, there is no cure for heart disease 
and stroke. Heart disease remains our Nation's number one 
killer and stroke is still the number three cause of death. 
Thanks to NIH research, there are survivors like me. But to 
bring us closer to a cure, it is critical for Congress to 
increase funding for NIH heart research, now at only 4 percent 
of the budget, and stroke research, still at just 1 percent of 
the budget.
    Also, Congress must increase funding for CDC's Heart 
Disease and Stroke Prevention Programs. Although heart disease 
and stroke can often be prevented, Americans need access to 
prevention programs, but that is not happening.
    CDC spends just 16 cents per person on heart disease and 
stroke prevention. Moreover, more rural areas like my hometown 
of Wausau need increased access to automated external 
defibrillators to improve chances of sudden cardiac arrest 
victims surviving this particularly deadly form of heart 
disease.
    Americans deserve better. Thank you for your time.
    [Written statement by Scott Kneser follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much. I appreciate your coming. 
Glad you are doing so well.
    Mr. Kneser. Thank you.
    Mr. Obey. I hope you have better luck with airplanes 
getting back. I usually do. [Laughter.]
    Next, Landon King, American Thoracic Society.
                              ----------                              

                                           Wednesday, May 12, 2010.

                       AMERICAN THORACIC SOCIETY


                                WITNESS

LANDON KING, M.D., DIRECTOR, PULMONARY AND CRITICAL CARE MEDICINE, 
    JOHNS HOPKINS SCHOOL OF MEDICINE
    Dr. King. Good afternoon. My name is Landon King. I am 
Director of Pulmonary and Critical Care Medicine at Johns 
Hopkins. I am here today representing the American Thoracic 
Society, whose 18,000 members are dedicated to preventing and 
fighting respiratory disease around the globe through research, 
education, patient care and advocacy.
    I would like to particularly thank you, Mr. Chairman, for 
your leadership role in providing the historic biomedical 
research investment made through the American Recovery and 
Reinvestment Act. This investment is accelerating lifesaving 
research into respiratory diseases affecting millions of 
people.
    I would like to illustrate how NIH-funded research turns 
medical advances that save people's lives by telling you about 
one patient that I treated in the medical intensive care unit 
in November. This 19 year old girl arrived in our ICU after 
becoming progressively ill at home for the preceding week. She 
developed worsening shortness of breath and required mechanical 
ventilation to stay alive.
    In the ICU, she was diagnosed with H1N1 influenza. She 
required intravenous medication to support her blood pressure, 
as well as intravenous antibiotics to fight infection. She was 
on a ventilator in the ICU for several weeks and required 
additional weeks of hospitalization once she left the ICU.
    Her care was managed throughout by dedicated teams of 
nurses, therapists and physicians. What ultimately improved 
this young girl's chances of survival was a new mechanical 
ventilation strategy that was less stressful on her lungs.
    Several elements of her story are relevant to my testimony 
today. First, this young girl had H1N1 influenza, emphasizing 
the continued importance of a strong public health system. 
Second, respiratory failure of the type she experienced, called 
acute lung injury, can be caused by many things, including 
infection, drowning and traumatic injury, for example in 
traffic accidents. Threats from infectious disease or other 
exposures frequently cause illness or death because of the 
effect on the lungs.
    Third, she's alive today as a result of the mechanical 
ventilation strategy developed through a National Heart, Lung 
and Blood Institute-funded clinical trial. In this study, 
pulmonary and critical care investigators identified that 
mechanical ventilation itself can damage the lung and through a 
multi-center clinical trial published in The New England 
Journal of Medicine demonstrated that survival was improved by 
25 percent using a ventilator strategy distinct from 
traditional approaches.
    Finally, despite the advances in ventilator management that 
saved this young girl's life and thousands of other patients 
each year, many more people are not so fortunate. Of the nearly 
200,000 people per year who develop acute lung injury, 
approximately 75,000 people still die each year. By 2030, as a 
result of the aging population, it is estimated that the number 
of acute lung injury cases per year will increase to 335,000 
and the number of deaths per year will increase to 147,000.
    Despite groundbreaking research by NHLBI, NIGMS and other 
institutes, we do not have specific therapies other than 
mechanical ventilation to treat this type of respiratory 
failure. More investigation is essential to generate new 
approaches to therapy.
    These examples are emblematic of respiratory disease in 
general. Chronic obstructive pulmonary disease, such as 
emphysema or chronic bronchitis, affects more than 12 million 
Americans and is the fourth leading cause of death in the U.S., 
the only one of the top four that has actually increased.
    More than 22 million children and adults have asthma, with 
personal and public health costs of $20,500,000,000 billion per 
year. It is estimated that more than 50 million Americans have 
breathing disturbances associated with sleep disorders, shown 
through NIH-funded investigation to increase strokes and death.
    Beyond these, significant numbers of Americans have other 
lung diseases that cause illness and deaths every day.
    Mr. Chairman, thanks in no small measure to the generous 
support of this Committee, the research and public health 
community continues to make advances against lung diseases. We 
urge this Committee to build on the biomedical research 
investment made through the ARRA to speed the discovery of more 
lifesaving treatments and cures.
    Similarly, our Nation's public health and chronic and 
infectious disease prevention programs must be equipped to 
effectively translate NIH research into programs in chronic 
disease prevention, infectious disease control, and 
occupational safety and health research and training.
    Thank you.
    [Written statement by Landon King, M.D. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much.
    Next, Neil Bressler, American Academy of Ophthalmology.
                              ----------                              

                                           Wednesday, May 12, 2010.

         NATIONAL INSTITUTES OF HEALTH, NATIONAL EYE INSTITUTE


                                WITNESS

DR. NEIL BRESSLER, WILMER EYE INSTITUTE, JOHNS HOPKINS UNIVERSITY 
    SCHOOL OF MEDICINE; AMERICAN ACADEMY OF OPHTHALMOLOGY
    Dr. Bressler. Mr. Chairman, Subcommittee Members, thank you 
for the opportunity to appear before you today in support of 
appropriations for the National Institutes of Health and the 
National Eye Institute.
    My name is Neil Bressler and I am the James P. Gills 
Professor of Ophthalmology at Johns Hopkins University. I 
currently serve as Chief of the Wilmer Eye Institute's Retina 
Division, but I also chair the FDA Ophthalmic Devices Panel and 
chair the Data and Safety Monitoring Committee, which oversees 
all intramural clinical trials by the National Eye Institute.
    And I have been the recipient of many NIH grants to chair 
large scale multi-center clinical trials, most recently, a 
comparative effectiveness study conducted at more than 50 
clinical centers by the Diabetic Retinopathy Clinical Research 
Network.
    This network confirmed just two weeks ago a treatment 
breakthrough for saving the vision of tens of thousands of 
people in the United States each year with a common diabetic 
eye disease. And I am pleased to be here testifying on behalf 
of the American Academy of Ophthalmology, the world's largest 
organization of eye physicians and surgeons.
    It is particularly appropriate, Mr. Chairman, to discuss 
vision and preventing blindness today since May is Healthy 
Vision Month, a designation to elevate vision as a health 
priority for the Nation. We need our vision to work, to read, 
to drive, to distinguish the faces in this room.
    The Academy and the vision community commends Congress for 
$10,400,000,000 in NIH funding in the ARRA, as well as fiscal 
year 2009 and 2010 funding increases that enabled the NIH to 
keep pace with biomedical inflation after six previous years of 
flat funding that resulted in a 14 percent loss of purchasing 
power.
    The Academy supports a fiscal year 2011 NIH funding level 
of $35,000,000,000, which would result in NEI funding at almost 
$800,000,000. This funding level would increase the level of 
grants available to researchers, maintain the momentum of the 
research I am describing, and leverage the investment that 
Congress has already made in the NIH and the NEI through ARRA 
funding to allow us to continue to make breakthroughs which 
reduce blindness throughout the world.
    The recent treatment breakthroughs which are having a huge 
impact on reducing vision impairment and blindness from these 
common eye diseases suggests that this is not the time for a 
less-than-inflationary increase that nets a loss in NEI's 
purchasing power, which was previously eroded by 18 percent in 
fiscal years 2003 through 2008.
    The baseline funding in fiscal years 2009 and 2010 has also 
enabled the NEI to fund key research networks that are studying 
such issues as the genetic basis of glaucoma, the second 
leading cause of blindness. And as I mentioned, the NIH just 
issued a press release only two weeks ago announcing the 
publication of this comparative effectiveness study which 
confirmed that a new treatment for swelling of the retina from 
diabetes, the main cause of central vision loss in people with 
diabetes, which can affect as many as 30 percent of people who 
have had diabetes for more than 20 years, and affects their 
ability to read or drive, the study showed that these eye 
injections of a new medication, combined with laser, nearly 50 
percent of the people who received this treatment had 
substantial vision improvement, and fewer than 5 percent lost 
vision.
    The unprecedented level of fiscal year 2009 to 2010 vision 
research funding is moving our Nation that much closer to 
preventing blindness and to restoration of vision. With an 
overall NIH funding level of $35,000,000,000 and an NEI funding 
level of almost $800,000,000, the vision community can 
accelerate these efforts and reduce healthcare costs, 
maintaining productivity, causing independence, and ensuring 
quality of life.
    In closing, I would just like to summarize and encourage 
the Subcommittee to increase the funding level of the NIH to 
$35,000,000,000 or at a minimum increase the NEI funding by at 
least 3.2 percent in fiscal year 2011 in order to continue the 
momentum of vision-saving research in the United States. Not 
working today to stave off debilitating eye disease will have a 
huge and grave economic and social repercussion for America's 
future.
    Thank you very much.
    [Written statement by Neil Bressler, M.D. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Wanda Burns, American Cancer Society Cancer Action 
Network.
                              ----------                              

                                           Wednesday, May 12, 2010.

        NATIONAL INSTITUTES OF HEALTH, NATIONAL CANCER INSTITUTE


                                WITNESS

WANDA BURNS, RN, AMERICAN CANCER SOCIETY CANCER ACTION NETWORK
    Ms. Burns. Chairman Obey and Members of the Subcommittee, 
thank you for the opportunity to appear before you this 
afternoon to testify in support of the National Institutes of 
Health and National Cancer Institute. My name is Wanda Burns 
and I am from Niles, Ohio, a town just outside of Youngstown.
    I am here today on behalf of the American Cancer Society 
Action Network, and my late sister-in-law Cindy. Cindy died 
from ovarian cancer in 2008 and I appear here today to honor 
her fight against cancer. I have been a registered nurse for 30 
years, and in that time have seen first-hand the results of the 
tremendous progress we have made thanks to research in 
preventing, detecting and treating cancer, and better managing 
symptoms and side effects to improve patient quality of life.
    Part of my nursing career has been in the hospice study, so 
I am also keenly aware that far too many people facing the 
disease, our cancer-fighting tools for early detection, 
treatment, and care remain limited. Ovarian cancer lacks a 
screening test to aid in the early diagnosis and treatment that 
is essential to survive. The majority of cases are diagnosed at 
a distant stage when the cancer has spread and the five-year 
survival rate in those cases drops to only 31 percent.
    Cindy, sadly, was one of those cases. She discovered a 
protrusion on her abdominal wall in early January, 2004 and was 
diagnosed with cancer a few weeks later. By that time, Cindy's 
cancer had metastasized to her colon and diaphragm. According 
to statistics, Cindy's life expectancy was 19 months.
    We were fortunate that Cindy's oncologist was able to help 
her find and enroll her in a clinical trial sponsored by the 
National Cancer Institute which took place at the Cleveland 
Clinic. While conventional chemotherapy failed and offered 
Cindy little help and hope, the clinical trial offered an 
additional course of treatment and an additional 45 months of 
life. Her participation in these clinical trials gave all of us 
hope. More importantly, it gave us precious additional time 
together as a family.
    I am so pleased to tell you that Cindy beat the odds and 
enjoyed nearly five rewarding years of life after her late 
stage diagnosis, which included being there to see her only son 
get married. This meant the world to Cindy and to the entire 
family.
    But research progress does not happen overnight, though we 
would wish it could. Cindy enrolled in one particular clinical 
trial at Cleveland Clinic in 2005, a trial that had actually 
initiated in 2001 and just concluded earlier this year. This 
trial, which took just under 10 years to complete, evaluated a 
combined therapy regimen for treating ovarian cancer.
    After being invited to testify, I checked in with Cindy's 
gynecological oncologist and learned that the results from the 
clinical trial are very promising. It is clinical trials such 
as this that give healthcare providers, patients, family and 
friends hope. Clinical trials are important to all of us, for 
no one knows what our personal futures hold.
    Cindy's story and the countless stories of other cancer 
patients make clear that sustained funding for cancer research 
is critical to maintain and build on the progress we are making 
every day. The clinical trials that gave us treasured years 
with Cindy and gave Cindy countless special moments like being 
at her son's wedding, would not have happened absent support 
from the National Institutes of Health National Cancer 
Institute.
    The NIH and NCI support life-saving research at the 
Cleveland Clinic, 64 NCI Cancer Centers and multiple other 
institutions in oncology practice settings across the country. 
Knowing that funding for this research is secure gives us all 
hope.
    For this reason, I am requesting on behalf of the American 
Cancer Action Network that the National Institutes of Health 
receive a budget of $35,000,000,000 in fiscal year 2011, 
including $5,800,000,000 for the National Cancer Institute.
    Thank you, Mr. Chairman, for the opportunity to testify.
    [Written statement by Wanda Burns, R.N. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Mr. Ryan. Mr. Chairman, I would just like to say hello 
because Wanda is not only from my District, she is from my home 
town, and I want to thank her for coming up.
    So thank you for your work.
    Mr. Obey. She told me a lot about you. [Laughter.]
    Mr. Ryan. Let's keep that off the record, will you, Mr. 
Chairman? [Laughter.]
    Ms. Burns. Thank you.
    Mr. Obey. Thank you.
    Next, I understand, Congressman Shimkus would like to 
introduce someone.
    Mr. Shimkus. Thank you, Mr. Chairman.
    It is an honor to be here, especially as I have never been 
in this hearing room and it is good to be here in your last 
years of serving, and I appreciate your service.
    Thank you, Ranking Leader Rehberg also for this time.
    I am here to introduce Kristin. Kristin is the widow now, 
wife of my former Legislative Director Ray Fitzgerald, who 
passed away from gastric cancer. Kristin has testified before, 
now I am Ranking on the Subcommittee on Health, to talk about 
the funding aspects of the National Cancer Institute and the 
issues related there.
    She is a former Hill staffer, was on Education and Labor 
with now our Leader Boehner's staff, so she is very capable and 
understanding of the ways of how we work out here. She came out 
here on the train.
    Mr. Obey. I'm glad that somebody is. [Laughter.]
    Mr. Shimkus. She came out on the train with Nora, Maggie 
and Lucy.
    About half the deaths from cancer come from a deadly cancer 
disease, and only 17 percent of the funding goes there. And so 
I think in part what we had in our hearing raised that issue 
and talked about the proportion of where our money should go 
and how it should be spent. She does a much better job than I 
do. I am just pleased to have her still working on behalf of 
healthcare for all Americans, and in a legacy of my former 
employee and her husband, Ray Fitzgerald, who we miss dearly.
    Thank you, Mr. Chairman.
    Mr. Obey. Thank you. Glad to have you.
                              ----------                              --
--------

                                           Wednesday, May 12, 2010.

        NATIONAL INSTITUTES OF HEALTH, NATIONAL CANCER INSTITUTE


                                WITNESS

KRISTIN W. FITZGERALD
    Ms. Fitzgerald. Thank you, Congressman Shimkus, for your 
tireless commitment and support.
    Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity to testify at today's hearing on the need for 
fiscal year 2011 funding to research gastric or stomach cancer 
and other gastrointestinal or GI cancers in young people.
    Chairman Obey, I was also sorry to hear of your retirement, 
with your longstanding commitment to medical research.
    I am here today not only on my own behalf, but that of my 
husband, Ray Fitzgerald, who died last year of gastric or 
stomach cancer. As you have heard, Ray was Legislative Director 
for Congressman John Shimkus.
    Until his diagnosis in May of 2008, Ray was a healthy 36 
year old man. He had no risk factors for cancer. He had never 
smoked, drank infrequently, and lived a healthy lifestyle. With 
no family history of cancer, nothing would ever have put him at 
a high risk of a cancer diagnosis.
    Ray's cancer symptom was burping, which appeared for a 
period of two months before his cancer was diagnosed. When he 
was diagnosed, his cancer was an advanced stage four. His 
gastric tumor had spread throughout the lining of his stomach 
and progressed to his esophagus and liver.
    We were told that there was no hope of a cure, but that 
chemotherapy could reduce the cancer for a time. That time was 
eight months. Let me be clear. The time between diagnosis and 
Ray's death was only eight months. This is not an abnormal 
scenario for gastric cancer. It is the second deadliest cancer 
worldwide. It very often presents in stage four and is always 
incurable at that point.
    Ray, however, at 36, was 40 years younger than the average 
gastric cancer patient, and thus the grim prognosis impacted 
not just Ray, but myself and our three young daughters, Nora, 
Maggie and Lucy.
    Members of the Subcommittee, it is my belief that Ray's 
diagnosis and prognosis is our worst cancer nightmare: 
diagnosis of a deadly cancer with very few warning symptoms at 
an advanced stage where cure is impossible. It is a death 
sentence.
    After Ray died, I spent time researching how this kind of 
scenario can be prevented. As a former Congressional health 
staffer, I assumed that gastric cancer research was ongoing. 
However, far too little is being done to research gastric 
cancer and other GI cancers that have a similar deadly 
prognosis.
    CBS News analyzed the disparity in research dollars in May 
of 2009. For every cancer death, the most Federal research 
dollars are spent on cancers of the cervix and breast. The very 
least funded is gastric cancer, at about $1,100 a person.
    GI cancers are some of the deadliest cancers in the United 
States. Four out of the five lowest five-year cancer survival 
rates for metastatic cancer are GI, including stomach cancer 
with a survival rate of only 3.4 percent.
    And GI cancers are rising, particularly in young people. 
Last week, NCI released a study showing that a young person's 
likelihood of being diagnosed with gastric cancer has increased 
by almost 70 percent since 1977. Likewise, a recent NCI article 
documented a 190 percent increase in a sub-type of cancers of 
the stomach and esophagus in young white males like Ray.
    And the situation for young people with GI cancers is 
particularly grim. Because of their lack of symptoms, the 
disease is usually in a late stage by the time a diagnosis is 
established. And their very age works against them as the 
strength and relative health of their bodies is passed on to 
their cancers, making them even more aggressive than in older 
patients. As a result, GI cancers in young people tend to be 
fatal.
    In my view, this is intolerable. Congress and NCI can and 
should do more to ensure that researchers can have access to 
the tools they need to prevent and diagnose these cancers 
before it is too late. Research is essential in order to 
understand the unique characteristics of the disease in younger 
people and develop a screening test based on molecular markers 
to allow for earlier detection.
    In order to accomplish this research, NCI must develop a 
coordinated national GI cancer tissue biorepository and a 
research project to focus research in this area and make tumor 
tissue available for research purposes.
    A specific research project is critical in order to obtain 
IRB approval to go beyond the standard of care in obtaining 
tumor tissue and elicit the participation of our Nation's top 
cancer centers.
    Last year, the Labor, HHS, and Education Appropriations 
Report included language asking the NCI to develop a research 
project and biorepository to study these cancers in young 
people, and language for fiscal year 2011 asking NCI to report 
on its progress has been submitted by Congressman Jackson.
    After my testimony to the Energy and Commerce Committee, 
work with NCI has commenced to potentially include gastric 
cancer in the Cancer Genome Atlas, but we need Congressional 
support and NCI support to ensure that these cancers can be 
cured.
    [Written statement by Kristin W. Fitzgerald follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much. We are sorry for your loss.
    Next, E. Clarke Ross, Friends of NCBDDD.
                              ----------                              

                                           Wednesday, May 12, 2010.

  CENTERS FOR DISEASE CONTROL, NATIONAL CENTER FOR BIRTH DEFECTS AND 
                       DEVELOPMENTAL DISABILITIES


                                WITNESS

E. CLARKE ROSS, CHAIR, FRIENDS OF THE NATIONAL CENTER FOR BIRTH DEFECTS 
    AND DEVELOPMENTAL DISABILITIES
    Mr. Ross. Thank you, Mr. Chairman. I am representing the 
Friends of the National Center on Birth Defects and 
Developmental Disabilities at CDC. According to the National 
Council on Disability, there are 54 million Americans with 
disabilities, and NCBDDD is the disabilities center at CDC.
    I have had the privilege of working for 40 years with five 
different national disability organizations and I brought a 
photo of you that I was at with the leadership of United 
Cerebral Palsy of Wisconsin from the late 1970s or the early 
1980s.
    Mr. Obey. That guy is an imposter. [Laughter.]
    Mr. Ross. People recognize you. People recognize you.
    We are asking for a $20,000,000 increase in the 
appropriation for NCBDDD. That is a 14-percent increase over 
the $143,000,000 level of the current level and NCBDDD would do 
five things with this $20,000,000. One is to enhance wellness 
and prevention initiatives for people with disabilities. This 
is a big priority of the First Lady, obesity. The new CDC 
Administrator's big priority is anti-smoking, obesity, 
infectious diseases.
    I am the father of a 19-year-old son with high-functioning 
autism and non-attentive ADHD, significant anxiety and learning 
disabilities. He is 19. He is right out of high school. And 
what does he do left to his own druthers? He sits in his 
apartment and watches TV and does Game Boy kinds of things.
    So this population is very socially isolated. And unless we 
have aggressive NCBDDD programs that deal with things like 
social isolation in this population, what are guys like my son 
going to do? They are going to eat. Fortunately, he does not 
drink or smoke or do drugs, but what he is going to do when he 
is socially isolated by himself is use behaviors that are not 
very positive and helpful.
    So we would use some of this $20,000,000 to deal with 
health and wellness programs like the First Lady and the CDC 
Administrator desire.
    We also need to do a lot in the health disparity area. The 
disability population itself is highly under-served compared to 
the population at large. Many of the witnesses are consumers 
and family members. A high priority of NCBDDD is to educate 
family members and consumers about all of these disabilities, 
how to deal with the disabilities, how to plan your life around 
the disabilities. That is a third area.
    The fourth area is a big need. We have a good special 
education law in this Country. We have 6.5 million kids in 
special education. They come out of high school. We as a 
society are not really dealing with the transition from high 
school to employment or college, and we need a lot of planned 
supportive activities to help young adults.
    And this is very consistent with the whole employment 
initiative. We need to help people get employed. We need to 
support them in employment, and NCBDDD can do that with an 
increase in appropriations.
    And last, NCBDDD does do global health work like folic acid 
distribution around the Country to prevent birth defects.
    So $20,000,000, these are the five things the Friends would 
like to see money used for.
    [Written statement by E. Clarke Ross, D.P.A., follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. All right. Thanks again.
    Next, Vicki Modell, Jeffrey Modell Foundation.
                              ----------                              

                                           Wednesday, May 12, 2010.

    NATIONAL INSTITUTES OF HEALTH, OFFICE OF PUBLIC HEALTH GENOMICS


                                WITNESS

VICKI MODELL, CO-FOUNDER, JEFFREY MODELL FOUNDATION
    Ms. Modell. Mr. Chairman and Members of the Committee, 
thank you so much for this extraordinary opportunity to testify 
today.
    My husband and I created the Jeffrey Modell Foundation in 
memory of our son Jeffrey, who died at the age of 15 after a 
life-long battle with primary immunodeficiency. PI diseases 
afflict more than 1 million Americans, but most of them go 
undiagnosed.
    Over the past 12 years that we are coming to Washington, 
you have given us the opportunity to build a strong partnership 
with Congress, CDC, NIH, as well as industry and private 
donors. Now, I would like to tell you where we are, where we 
are going with your continued support, and some changes that 
are needed in the President's budget request that will allow us 
to continue to help our patients and save lives.
    This Committee provided the funding for physician education 
and public awareness programs. Working with CDC, we started the 
campaign five years ago and our public service ads have 
generated more than $130,000,000 in donated media. It has 
enabled us to generate additional funding from the private 
sector, and we are very proud to report that every $1 of 
Federal funds provided has been leveraged into more than $10 
for our program.
    I am delighted to report that this initiative is having 
exactly the impact that we all had hoped for. Physicians at our 
79 Jeffrey Modell Centers in the U.S. report a doubling every 
year in the number of patients diagnosed and treated. And 
severe infections, hospitalizations, school and workdays missed 
were reduced by an average of 70 percent. This generates a 
savings to the healthcare system of more than $80,000 per 
patient per year.
    Since the NIH reports that there are 500,000 Americans with 
PI who are undiagnosed, the wasted cost to our healthcare 
system is $40,000,000,000 annually. All of this has been 
published in a peer-reviewed journal.
    This program is successful, but here is the problem. The 
President's budget for fiscal year 2011 reduces funding for the 
Office of Public Health Genomics and eliminates the line items 
created by this Committee to fund the education and awareness 
programs. While CDC has indicated its support, the only 
guarantee that it will go forward is if this Committee supports 
that and acts.
    For this reason, we are requesting that when you assemble 
the Chairman's mark for the bill, you return this account to 
the current status, as was found in the fiscal year 2010 bill. 
The program is working and it has earned your continued 
support.
    An additional success story for this Committee and by this 
Committee, I may say, is the newborn screening program that was 
funded and piloted in Wisconsin and Massachusetts by CDC and 
our Foundation. Today, every baby born in those two States is 
being screened for this life-threatening condition, and 
potentially cured. The cost of the screening is less than $5 
per baby. Now, that is priceless.
    That is why this past January the Secretary's Advisory 
Committee voted unanimously to add SCID testing to the national 
core panel.
    I received a note from a mother in Edgar, Wisconsin, not 
far from you, whose baby was screened, transplanted, and has 
been completely cured. The impact of this Committee is 
extremely well expressed in her note: ``We are so blessed to 
have our beautiful baby Dawson. Every day I feel we are the 
luckiest family in the world. I always think about the time we 
testified in D.C. and we sat next to the parents from Oregon 
who lost their baby Liam to SCID. That could have been us. This 
September will be Dawson's two-year anniversary of his 
transplant. We cannot imagine life without him.''
    Well, tomorrow 11,000 babies will be born in this Country, 
but only 300 to 400 of them will be born in States that 
currently screen for SCID. They will be the lucky ones. They 
will have a chance of life. If every State would screen for 
SCID, we could actually wipe out this deadly disease. What a 
great legacy for this Committee.
    So Fred and I accept the reality that science and discovery 
did not come in time to save Jeffrey, but we are dedicated and 
committed to work with you so that all the Jeffreys in the 
future will have a healthy life. This is our hope. It is our 
dream. Let's go forward on this journey together starting 
today.
    Thank you and thank you for your service for so many years.
    [Written statement by Vicki Modell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Madeleine Will, National Down Syndrome Society.
                              ----------                              
                                           Wednesday, May 12, 2010.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES


                                WITNESS

MADELEINE WILL, VICE PRESIDENT, NATIONAL DOWN SYNDROME SOCIETY
    Ms. Will. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. I am Madeleine Will, Vice President of Public 
Policy for the National Down Syndrome Society. I want to thank 
you for the opportunity to testify today and to thank you for 
your leadership role that you and the Subcommittee have played 
over the years in supporting and creating greater public 
awareness of Down Syndrome.
    There are more than 400,000 people living with Down 
Syndrome in the U.S. and about 5,000 babies are born each year 
or one in 733. Down Syndrome occurs in people of all races and 
economic levels, and is the most frequently occurring 
chromosomal condition.
    Mr. Chairman, recognizing the challenges the Subcommittee 
faces in prioritizing requests, the National Down Syndrome 
Society respectfully recommends that you appropriate $5,000,000 
in fiscal year 2011 to the Centers for Disease Control and 
Prevention to implement the requirements of the Prenatally and 
Postnatally Diagnosed Conditions Awareness Act which was 
enacted in 2008.
    This law will ensure that pregnant women who receive a 
diagnosis of Down Syndrome and other genetic disorders 
prenatally or postnatally receive up to date scientific 
information about such things as life expectancy, functional 
development, clinical course, prenatal and postnatal treatment 
options, educational and psychosocial outcomes. This 
information is to be provided through the development of 
materials, the creation of hot lines, Web sites and 
informational clearinghouses.
    With $5,000,000, the Department of Health and Human 
Services will be able to fund, to collect and distribute 
information related to prenatally and postnatally diagnosed 
conditions.
    There are several points I would like to underscore in my 
testimony. First, it is important to note that the 
organizations supporting the legislation went to great lengths 
to ensure bipartisan support for it, seeking out and achieving 
the championships of Senator Brownback and former Senator 
Kennedy.
    We also went to considerable lengths to speak to both right 
to life and pro-choice groups to convey that this legislation 
should be characterized for what it is, a piece of legislation 
about accurate evidence-based information that needs to be 
delivered to pregnant women.
    It is also important to underscore that the legislation was 
not designed to focus only on women who receive information 
about Down Syndrome. Rather, the legislation seeks to develop 
and to have distributed information about many disabilities and 
genetic disorders, to name a few: Trisomy 13 and 18, Williams 
Syndrome, spina bifida.
    More than 1,000 prenatal tests are available or in 
development and a best practice bulletin has been issued by the 
American College of Obstetricians and Gynecologists. It is 
recommended that all pregnant women be offered prenatal 
testing, all 4 million pregnant women annually.
    This means that these women need to receive information 
that is complex and challenging and changing with new data, 
advances and findings that need to be conveyed, particularly 
after Francis Collins' mapping of the human genome. Hank 
Greely, the Director of Stanford University's Center for Law 
and Biosciences, said recently, ``Information is powerful, but 
misunderstood information can be powerfully bad.''
    Another point I would like to emphasize is that we do know 
how obstetricians feel about the issues of screening and the 
delivery of a diagnosis of Down Syndrome and other chromosomal 
disorders. In an article published by ACOG, 36 percent of 
obstetricians feel well qualified to counsel patients who 
screen positive for Down Syndrome; 51 percent thought the 
training they received was adequate, but 40 percent thought it 
was less than adequate; and only 29 percent of physicians 
surveyed provided printed educational materials to a woman when 
her fetus was diagnosed with Down Syndrome.
    Lastly, we have information about how the diagnosis should 
be delivered. A 29-member research team surveyed women who had 
received a diagnosis to determine the best way of delivering 
the news, and some of the most important findings were that all 
women wanted to discuss all options available to them, 
including continuing the pregnancy, adoption and termination.
    They also wanted screening results explained as a risk 
assessment and not as a positive or a negative result. They 
wanted sensitive language used in the delivery of a diagnosis 
and they wanted consistency in the messages conveyed by the 
variety of professionals with whom they interact.
    NDSS is working collaboratively with ACOG, the National 
Society of Genetic Counselors, and the American College of 
Medical Genetics since the passage of the law. We have 
developed a consensus document which explored myths and 
realities about prenatal testing. We have pledged to review 
materials together, but frankly, we are stuck even if we had 
materials developed, we would not be able to move forward to 
publish and distribute this information to physicians and women 
without a Federal partner and additional funding.
    Mr. Obey. I will have to ask you to wrap it up.
    Ms. Will. Yes, Mr. Chairman, thank you for your time and 
attention. We are thrilled beyond measure that Congress enacted 
this legislation and hope that the funding of this law will 
lead to better information and better decision making.
    Thank you.
    [Written statement by Madeleine Will follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    I understand the situation. My nephew was a Down Syndrome 
child.
    Next, Michael Goldberg, Society for Neuroscience.
    Oh, I am sorry. I mucked up. Okay.
    Gail Smith, Dr. Anthony R. Horton, International Rett 
Syndrome Foundation.
                              ----------                              

                                           Wednesday, May 12, 2010.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES


                                WITNESS

GAIL SMITH, INTERNATIONAL RETT SYNDROME FOUNDATION
    Ms. Smith. Mr. Chairman and Committee Members, thank you 
for this opportunity to speak. I had a daughter with Rett 
Syndrome, and this is my story.
    My name is Gail Smith and I reside in Maryland. My husband 
and I dreamed of raising a normal healthy family. Seems like 
yesterday when our first child was born. She was a perfect 
baby. She babbled and cooed her way through the first year, a 
bouncing happy baby. She played patty-cake and waved bye-bye 
and began to feed herself and walk.
    Suddenly after one year old, Kristi became aloof and began 
to lose skills rapidly. At two and a half, she literally 
overnight lost her ability to walk independently. We were 
terrified. We pursued countless doctors and many, many medical 
tests, but still no answers. By five years of age, her mind was 
trapped within a body that would not allow her to communicate 
or physically respond.
    We mourned the death of our normal child and began to 
grapple with our changing life. We experienced fear, anger and 
a deep sense of sadness. I used to lie in bed trembling and 
praying that I could just learn to cope and that she wouldn't 
die.
    I searched fervently in medical journals and papers for any 
remote likeness to the symptoms that Kristi exhibited. Then one 
day a friend who had a daughter in some ways similar to mine 
shared with me a paper on Rett Syndrome. That was the first 
article on the condition ever published in English. I knew I 
had found Kristi's diagnosis.
    At 13 years of age, Kristi was one of the first girls in 
the United States officially diagnosed with Rett Syndrome at 
Johns Hopkins by Dr. Andreas Rett himself. Rett Syndrome is a 
neurologic disorder that occurs almost exclusively in girls who 
develop normally until between six and 18 months of age, when 
the child begins a regression that severely challenges her 
mentally and physically.
    At that time, there was no known cause, treatment or cure. 
Kristi spoke volumes with her eyes. She spread love with her 
sweet smile. She and I became symbiotic, joined at the hip. The 
last word she could speak was ``Mama,'' usually when she was in 
stress. I became sensitive to her every need and I couldn't 
help her frustration or take her place from her.
    She endured so many operations for scoliosis, tendon 
releases, and the placement of a feeding tube. As her lungs 
deteriorated, she was hospitalized many times for aspiration 
pneumonia. I have never experienced anything as painful as 
watching her suffer.
    On September 9, 2006, as I lay holding her in the intensive 
care unit at Children's National Medical Center, she slipped 
away. And part of me slipped away, too. She was 34 years old.
    Despite the struggle, we have been so blessed to have her 
in our life. She has taught me more about life and 
relationships than any teacher I have ever had. I cry every day 
since she has been gone. There is a hole in my heart.
    However, I am somewhat comforted knowing that she is 
smiling down knowing there is hope for other girls with Rett 
Syndrome. It is my everlasting love for Kristi and the hope for 
those children with Rett Syndrome, the hope that children with 
Rett Syndrome can be reversed for those who have the disease, 
and the families caring for them that brings me here today.
    Research is the only way to help us find a cure for the 
many thousands of girls who are today suffering as Kristi did 
for 34 years. Through research, we have now found the cause of 
Rett Syndrome. Through research, we now know it can be 
reversed. Researchers tell us that we are at the point of 
testing treatments to reverse the symptoms of this disease.
    With your support, we can take the next steps on the path 
and begin testing the therapies that will help these girls live 
better lives. With your support, we could reverse this disease 
once and for all.
    I loved Kristi so much and it would mean so much to see 
funding appropriated to help avenge the devastating impact of 
this horrible disease.
    Please help us. Thank you for your time and consideration.
    Congressman Steny Hoyer has worked tirelessly with us on 
funding for Rett Syndrome. Our families met at church. He and 
Kristi have had a long and lasting relationship over the years. 
He has worked with us and has been so helpful and I want to 
thank him. I know he is not here.
    Thank you for your time. God bless all.
    [Written statements by Gail Smith and Dr. Antony R. Horton 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Obey. Thank you. I know it is tough to bring that story 
here.
    Next, Michael Goldberg, Society for Neuroscience.
                              ----------                              
                                           Wednesday, May 12, 2010.

                     NATIONAL INSTITUTES OF HEALTH


                                WITNESS

MICHAEL E. GOLDBERG, M.D., PRESIDENT, SOCIETY FOR NEUROSCIENCE
    Dr. Goldberg. Mr. Chairman and Members of the Committee, it 
is an honor to testify today on the fiscal year 2011 budget.
    On behalf of the 40,000 scientists and clinicians who are 
members of the Society for Neuroscience, I thank the 
Subcommittee for its past support of research at the NIH and in 
particular I thank Chairman Obey for his unflagging support for 
biomedical science.
    I am Michael Goldberg, President of the Society for 
Neuroscience, and the David Mahoney Professor of Brain and 
Behavior at Columbia University in New York. Because I am both 
a basic neuroscientist and an active clinical neurologist, I 
know how basic research translates to new and better treatments 
for human disease often in unexpected ways.
    On behalf of the Society, I respectfully request a 2011 NIH 
appropriation of $35,000,000,000. This level will sustain the 
burst of scientific productivity funded by the American 
Recovery and Reinvestment Act for which the scientific 
community thanks this Congress and the Obama Administration, 
and which was especially welcome after six years of below 
inflationary increases for NIH.
    ARRA funding was an unqualified success. Areas of research 
that need to be sustained include the application of genetic 
knowledge to clinical treatment, immunological treatments for 
addiction, and the understanding of memory loss in Alzheimer's 
and in normal aging.
    While we applaud President Obama's strong commitment to 
science, the Administration's fiscal year 2011 budget does not 
fully take into account the tremendous scientific momentum from 
ARRA. With continued funding at the ARRA-adjusted base of 
$35,000,000,000, this research will form the foundation for new 
medical applications. Without it, NIH will see the wasteful 
termination of promising research programs just begun under 
ARRA funding and the firing of thousands of technicians and 
research fellows. Young investigators, the future of American 
science, will be especially devastated. Ultimately, scientific 
progress on diseases that cost society trillions will be 
delayed or derailed.
    In addition, strong NIH funding is vital to ensure that the 
United States remains the world leader in biomedical research. 
Today, that role is being threatened. For instance, China's 
government is using financial resources to draw scientists 
home. In my own lab, a post-doctoral fellow with a green card 
received an offer from the Chinese government that could not be 
matched in America, given the current funding climate, and he 
went back to China.
    SFN supports a robust international scientific community, 
yet we understand that strong American leadership is vital both 
to catalyze global research and to protect our Nation's future.
    Finally, as an NIH-funded scientist, funded by the National 
Eye Institute, I not only conduct research relevant to autism 
and attention deficit disorder, I support a community of 
workers. More than three-quarters of my funding goes to hire 
fellows, machinists, computer scientists, biological 
technicians and animal caretakers, as well as administrative 
staff.
    Nationwide, robust NIH funding generates hundreds of 
thousands of high wage jobs in every American State. According 
to a recent report, every $1 in NIH funding adds $2.11 to our 
economy.
    In closing, I stress that today, we live on the forefront 
of an era of breathtaking potential to advance biological 
knowledge and human health. And we are all fortunate to have 
the NIH, the world's finest biomedical research enterprise and 
a strong economic engine for America. As the Nation considers 
difficult decisions in the face of economic strain, 
prioritizing strong NIH funding remains a wise investment 
precisely because it contributes to our health and our economic 
strength.
    As the Nation emerges from recession, ARRA's infusion in 
infrastructure, labs, people and discoveries should be made 
permanent to serve the American people, their health and our 
economy.
    On behalf of the Society for Neuroscience, I again thank 
this Subcommittee, its Chair, and the Nation for America's 
commitment to research. I urge you to sustain the momentum with 
a fiscal year appropriation of $35,000,000,000.
    Thank you, Mr. Chairman.
    [Written statement by Michael E. Goldberg, M.D., follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, Cynthia Bearer, Children's Environmental Health 
Network.
                              ----------                              

                                           Wednesday, May 12, 2010.

DEPARTMENT OF HEALTH AND HUMAN SERVICES, CLEAN GREEN AND HEALTHY SCHOOL 
                               INITIATIVE


                                WITNESS

CYNTHIA BEARER, M.D., BOARD CHAIR, CHILDREN'S ENVIRONMENTAL HEALTH 
    NETWORK
    Dr. Bearer. Good afternoon. Thank you for the opportunity 
to testify before you today.
    I am the Mary Gray Cobey Professor of Neonatology and 
Division Chief of Neonatology at the University of Maryland. 
However, I am not here today in that role, but in my role as 
Board Chair for the Children's Environmental Health Network.
    The Network is a nonprofit organization that has been 
working for almost 20 years to promote a healthy environment 
and to protect all children from environmental health hazards.
    The world in which today's children live has changed 
tremendously from that of previous generations. This includes a 
phenomenal increase in the number of new substances to which 
children are exposed. For example, my 13-year-old son Matt has 
already been exposed to many more chemicals than I was at his 
age. Most of these chemicals are untested in their effects on 
developing organ systems such as the brain.
    Children have unique vulnerabilities and susceptibilities 
to toxic chemicals. As we have learned from lead, mercury and 
alcohol, an exposure which may cause little or no harm to an 
adult may cause permanent harm to a child. The Network 
appreciates the wide range of needs that you must consider here 
for funding. We urge you to give priority to those programs 
that directly protect and promote children's environmental 
health. In so doing, you improve not only our children's 
health, but also their educational outcomes and their future.
    My written testimony provides information on the funding 
needs of a variety of agencies and collaborative programs that 
are key in protecting children's environmental health, such as 
the Children's Environmental Health Research Centers of 
Excellence; the National Environmental Public Health Tracking 
Program; and the National Children's Study.
    The Network urges the Committee to provide full funding for 
the Administration's Clean Green and Healthy School Initiative. 
As you know, school children and their parents do not have an 
OSHA. No agency is authorized to intervene to protect children 
from environmental hazards in schools. We require our children 
to spend hours in an environment where they and their parents 
have no recourse if that environment is not healthy.
    Unfortunately, studies have shown that many of our school 
buildings are unhealthy. Similarly, although millions of 
preschool children spend hours in day care, most State 
licensing programs include few environmental health standards. 
Thus, we urge the Committee to expand the Clean Green and 
Healthy Schools Initiative to include child care.
    I will close by mentioning an area that has been of great 
concern to the Network, but which has received little attention 
by policy-makers. I am referring to global climate change. Of 
course, climate change has been a hot topic. However, the 
health impacts of climate change, especially the health impact 
on children, have received almost no attention. Yet children as 
a vulnerable sub-population will be the first and worst hit by 
climate change.
    The World Health Organization estimates that more than 
150,000 deaths per year due to climate changes are already 
occurring in the world's low-income nations. Of these deaths, 
almost 85 percent are young children. Thus, the Network urges 
the Committee to provide $50,000,000 in fiscal year 2011 for 
the Department of Health and Human Services to prepare for the 
potential health effects of global climate change.
    In conclusion, investments in programs that protect and 
promote children's health will be repaid by healthier children 
with brighter futures, an outcome we can all support. That is 
why the Network asks you to give priority to these programs.
    Thank you.
    [Written statement by Cynthia Bearer, M.D., follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you. We appreciate your comments.
    Next, Leonardo Trasande, Children's Environmental Health 
Center.
                              ----------                              
                                           Wednesday, May 12, 2010.

                       NATIONAL CHILDREN'S STUDY


                                WITNESS

LEONARDO TRASANDE, M.D., CO-DIRECTOR, CHILDREN'S ENVIRONMENTAL HEALTH 
    CENTER, MT. SINAI MEDICAL CENTER
    Dr. Trasande. Chairman Obey, Members of the Subcommittee, 
thank you for the opportunity to update you on ongoing progress 
at the National Children's Study, our Nation's opportunity to 
address the preventable and environmental causes of the 
epidemic of chronic conditions that affect children today.
    I co-direct the Children's Environmental Health Center at 
the Mt. Sinai School of Medicine, the Nation's first academic 
policy center devoted to the protection of children against 
environmental threats to health, and serve as the location 
principal investigator for Queens, New York, one of seven 
locations where the National Children's Study launched in early 
2009.
    The National Children's Study is a prospective study that 
will follow 100,000 American children, a nationally 
representative sample of all children born in the United 
States, from conception to age 21, and was mandated by Congress 
through the Children's Health Act of 2000. The study will 
gather an unprecedented volume of high quality data on how 
environmental factors acting either alone or in combination 
with genetics affect the health of infants and children, 
examining a wide range of environmental factors from air, water 
and dust, to what children eat and how often they see a doctor.
    The study will help develop prevention strategies and cures 
for a wide range of childhood diseases. The National Children's 
study will employ the latest tools in molecular epidemiology 
and will incorporate state of the art analyses of gene-
environment interactions.
    Congress has already laid a firm foundation for the 
National Children's Study. Between 2000 and 2009, Congress 
invested more than $580,000,000 to design the study and begin 
building the nationwide network for its implementation. Seven 
vanguard centers and a coordinating center were designed in 
2005 to test the necessary research guidelines with plans to 
expand the program to 41 States and 105 communities nationwide.
    Findings in these study centers have suggested that further 
refinements are necessary to ensure the most cost-effective 
investment in implementing the study, and generating policy-
relevant findings for decades to come. The study has recently 
been expanded to 30 additional locations where approaches to 
recruitment can be more fully optimized.
    A formative research program will generate new knowledge 
that will inform redesign of key questionnaires and other data 
collection approaches in response to important concerns that 
were raised by the National Academy of Sciences regarding the 
original vanguard protocol.
    The tough job of designing and organizing is nearly 
complete. Funding for the study this year will permit 
researchers to begin achieving the results that will make 
fundamental improvements in the health of America's children. 
To abandon the study at this point would mean foregoing all of 
that dedication, all of that incredible effort, and all of that 
logistical preparation.
    The National Children's Study will yield benefits that far 
outweigh its cost. Six of the diseases that are the focus of 
the study cost America over $642 billion each year. If the 
study were to produce even a 1 percent reduction in the cost of 
these diseases, it would receive $6,400,000,000 annually, 50 
times the average yearly cost of the study itself.
    The Framingham Heart Study upon which the National 
Children's Study is modeled, is the prototype for longitudinal 
medical studies and contributed powerfully to the 42 percent 
reduction in mortality rates from cardiovascular disease that 
were achieved in our Country over the past five decades.
    Funding for the study will require a commitment of 
$194,000,000. These funds will be used to begin enrolling 
children in to the study. They will enable the NIH to continue 
establishing the 105 study sites around the Country. We do not 
need to wait 21 years for benefits to materialize from the 
study. Valuable information will become available in a few 
years time, as soon as the first babies in the study are born.
    The National Children's Study will provide a blueprint for 
the prevention of disease and for the enhancement of health of 
America's children today and in the future. It will be our 
legacy to the generations yet unborn.
    Thank you for the opportunity to speak before you today.
    [Written statement by Leonardo Trasande, M.D. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Mr. Rehberg. May I ask how old you are? You look really 
young.
    Dr. Trasande. That is kind. I am 36. [Laughter.]
    Mr. Ryan. Hey, Rehberg, quit picking on young people, okay? 
We don't appreciate that. We have a caucus going over here. 
[Laughter.]
    Mr. Rehberg. Don't you wish you had that resume. 
[Laughter.]
    Mr. Obey. Next, David Meltzer, American Red Cross.
                              ----------                              --
--------

                                           Wednesday, May 12, 2010.

    CENTERS FOR DISEASE CONTROL AND PREVENTION, GLOBAL IMMUNIZATION


                                WITNESS

DAVID MELTZER, SENIOR VICE PRESIDENT FOR INTERNATIONAL SERVICES, 
    AMERICAN RED CROSS
    Mr. Meltzer. Thank you, Chairman Obey and Members of the 
Subcommittee. The American Red Cross appreciates the 
opportunity to submit testimony in support of the measles 
control activities of the U.S. Centers for Disease Control and 
Prevention.
    We recognize the leadership that Congress has shown in 
funding CDC for these essential activities and we sincerely 
hope that the Congress will continue to support the CDC during 
this critical period in measles control.
    In 2001, CDC, along with the American Red Cross, the United 
Nations Foundation, the World Health Organization, and UNICEF 
founded the Measles Initiative, a partnership committed to 
reducing measles deaths globally.
    The current UN goal is to reduce measles deaths by 90 
percent by 2010 compared to 2000 estimates. Working towards 
this goal, the Measles Initiative has achieved spectacular 
results by supporting the vaccination of more than 700 million 
children around the world. Largely due to the Measles 
Initiative, global measles mortality dropped by 78 percent from 
an estimated 733,000 deaths in the year 2000 to 164,000 deaths 
in 2008. During this same period in Africa, measles deaths fell 
by 92 percent, from 371,000 to just 28,000.
    Working closely with host governments, the Measles 
Initiative has been the main international supporter of mass 
measles immunization campaigns since 2001. The Initiative 
mobilized more than $720,000,000 and provided technical support 
in more than 60 developing countries on vaccination campaigns, 
surveillance, and improving routine immunization services.
    From 2000 to 2008, an estimated 4.3 million deaths were 
averted as a result of these accelerated measles control 
activities at a donor cost of $184 per death averted. This 
makes measles mortality reduction one of the most cost-
effective public health interventions.
    Nearly all the measles vaccination campaigns have been able 
to reach more than 90 percent of their target populations. By 
the end of 2008, all WHO regions, with the exception of 
Southeast Asia, achieved the 2010 goal two years ahead of 
target. The extraordinary reduction in global measles deaths 
contributed an estimated 25 percent of the progress to date 
toward Millennium Development Goal Number 4, which is reducing 
under age 5 child mortality.
    However, at the height of global achievements in measles 
control, a sharp decline in commitment threatens to erase the 
gains of the last decade and permit a global measles 
resurgence. The Measles Initiative presently faces a funding 
shortfall of an estimated $47,000,000 for 2011. The American 
Red Cross, which has to date contributed $141,000,000 to the 
Initiative, currently faces financial challenges that reduce my 
organization's foreseeable funding capacity.
    Current funding gaps have led to delays in mass campaigns, 
which have resulted in outbreaks and regrettably deaths. 
Sufficient funding must be secured for measles control 
activities in order to achieve the 2010 goal and to avoid a 
measles resurgence.
    Since fiscal year 2001, Congress has provided $43,600,000 
annually in funding to CDC for global measles control 
activities. These funds were used towards the purchase of 415 
million doses of measles vaccine for use in large scale measles 
vaccination campaigns in more than 60 countries in Africa and 
Asia, and for the provision of technical support to the 
Ministries of Health in those countries.
    Your commitment has brought us unprecedented success in 
reducing measles mortality around the world. The CDC support 
made possible by the Congressional funding was essential to 
achievement of the sharp reduction in measles deaths in just 
eight years. In fiscal year 2010, Congress has appropriated 
$51,900,000 to fund CDC for global measles control activities. 
The American Red Cross thanks Congress for the increase in 
financial support from past years. We respectfully request 
level funding for fiscal year 2011 for CDC's measles control 
activities to prevent a global resurgence of measles and a loss 
of progress toward Millennium Development Goal Number 4.
    Thank you for the opportunity to submit testimony.
    [Written statement by David Meltzer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you.
    Next, James Lacy, Rotary International.
                              ----------                              

                                           Wednesday, May 12, 2010.

                      CENTERS FOR DISEASE CONTROL


                                WITNESS

PAST PRESIDENT AND CHAIR JAMES LACY, POLIO ERADICATION ADVOCACY TASK 
    FORCE, ROTARY INTERNATIONAL
    Mr. Lacy. Thank you very much, Chairman Obey and Members of 
the Subcommittee. On behalf of 1.2 million Rotarians in more 
than 170 countries around the world, we thank you for your 
tremendous commitment to polio eradication globally.
    Thanks to your leadership in appropriating funds, progress 
toward a polio-free world continues on a positive course. Only 
four countries have never stopped polio transmission: 
Afghanistan, Pakistan, India and Nigeria.
    The number of polio cases has fallen more than 99 percent 
from an estimated 350,000 cases in 1988 to only 1,606 cases in 
2009. This year to date, the number of polio cases globally is 
84 compared to 383 at the same point in 2009. India went seven 
weeks without reporting any case of the wild polio virus. This 
is the first such lull in polio transmission since records have 
been kept. Transmission of polio in India is now focused in 
only 107 blocks in two states, a geographic area representing 
only 2 percent of that country.
    Due to increased ownership from national and state 
governments and religious and traditional leaders in Nigeria, 
the only polio endemic country in Africa, has reported only two 
cases of polio for 2010. By this point in 2009, polio had 
paralyzed 236 children. Twelve of the 20 reinfected countries 
in 2009 and 2010 have not reported a case of polio in the last 
six months.
    In March and April, 2010, countries throughout West and 
Central Africa took part in a preplanned synchronized 
immunization campaign. Political interest in the campaigns were 
extensive. Six heads of state and one First Lady launched the 
campaigns. This included the critical new involvement of the 
President of Chad, who declared war against polio.
    In sum, the prospects for polio eradication are better than 
ever in terms of the low level of polio incidence and the 
commitment to polio eradication in the polio endemic and 
outbreak countries.
    Lack of funds to conduct necessary activities may now pose 
the biggest threat. We have yet to identify sources of support 
for approximately half the U.S. $2,600,000,000 needed between 
now and the end of 2012 to achieve the goal of stopping all 
outbreaks and interrupting transmission of the wild polio 
virus.
    Rotary is committed to doing whatever it takes to ensure we 
seize the opportunity to conquer polio once and for all. 
Rotarians have already contributed more than $900,000,000 in 
this effort, plus thousands of man hours and are more than 
halfway to our current fundraising goal of $200,000,000.
    The leadership of the United States remains essential and 
Rotary International urges you continued support toward the 
shared goal of a polio-free world. For fiscal year 2011, we 
respectfully request that you include $102,000,000 of level 
funding for the targeted polio eradication efforts of the 
Centers for Disease Control and Prevention.
    The funds we are seeking will allow CDC to continue intense 
supplementary immunization activities in Asia and improve the 
quantity and quality of immunization campaigns in Africa to 
ensure we meet the goal of interrupting transmission of wild 
polio in these regions as quickly as possible.
    These funds will also help maintain certification standard 
disease surveillance, which is essential to protecting against 
and responding to outbreaks. Failure to achieve success would 
have significant humanitarian and economic consequences.
    Within the next decade, hundreds of thousands of children 
would again be paralyzed for life by this disease. Billions of 
dollars would have to be spent on outbreak response activities, 
rehabilitation, and treatment costs, and the associated loss to 
economic productivity.
    Success, on the other hand, will ensure that the 
significant investment made by the United States, Rotary 
International and many other countries and entities is 
protected in perpetuity.
    Thank you very much for your continued support, and we 
thank you especially, Mr. Chairman, for your support through 
the years, and thank you also for you also for the opportunity 
to give this testimony.
    Thank you.
    [Written statement by James Lacy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Thank you very much.
    Thank you all for testifying. That is it for the day, just 
in time.
    The Committee stands adjourned. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
